<html>
<title> - AN ASSESSMENT OF DEFICIENCIES AT THE NORTHPORT VA MEDICAL CENTER</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


    AN ASSESSMENT OF DEFICIENCIES AT THE NORTHPORT VA MEDICAL CENTER

=======================================================================

                              FIELD HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      TUESDAY, SEPTEMBER 20, 2016

               FIELD HEARING HELD IN NORTHPORT, NEW YORK

                               __________

                           Serial No. 114-80

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


         Available via the World Wide Web: http://www.fdsys.gov
                     
                     
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-226                      WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5235223d12312721263a373e227c313d3f7c">[email&#160;protected]</a>                     
                     
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            
                            C O N T E N T S

                              ----------                              

                      Tuesday, September 20, 2016

                                                                   Page

An Assessment of Deficiencies At The Northport VA Medical Center.     1

                           OPENING STATEMENTS

Honorable Jeff Miller, Chairman..................................     1
Honorable Mark Takano, Acting Ranking Member.....................     3

                               WITNESSES

Joan E. McInerney, MD, MA, MBA, FACEP, Network Director, Veterans 
  Integrated Service Network 2, U.S. Department of Veterans 
  Affairs........................................................     4
    Prepared Statement...........................................    43

        Accompanied by:

    Phillip C. Moschitta, Director, Northport VA Medical Center, 
        U.S. Department of Veterans Affairs

    Charlene M. Thomesen, M.D., Chief of Psychiatry, Northport VA 
        Medical Center, U.S. Department of Veterans Affairs

Mayer Bellehsen, PhD., Director, Mildred and Frank Feinberg 
  Division, Unified Behavioral Health Center for Military 
  Veterans and their Families....................................     6
    Prepared Statement...........................................    46

 
    AN ASSESSMENT OF DEFICIENCIES AT THE NORTHPORT VA MEDICAL CENTER

                              ----------                              


                      Tuesday, September 20, 2016

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 9:00 a.m., in the 
Auditorium, Northport VA Medical Center, 79 Middleville Road, 
Northport, NY, Hon. Jeff Miller [Chairman of the Committee] 
presiding.
    Present: Representatives Miller, Zeldin, Takano, and Rice.
    Also Present: Representative Israel.

           OPENING STATEMENT OF JEFF MILLER, CHAIRMAN

    The Chairman. This hearing will come to order.
    I would like to welcome everybody today to our hearing 
entitled ``An Assessment of Deficiencies at the Northport VA 
Medical Center.''
    Before we begin, I want to ask unanimous consent that 
Members of the New York delegation be allowed to join us on the 
dais to participate in today's hearing.
    Without objection, so ordered.
    Ladies and gentlemen, the purpose of the hearing today is 
to stress the number of problems that have arisen here at this 
facility. We as the oversight Committee would like to talk to 
some folks and get some answers today. We are going to focus 
primarily on quality of care as concerns the facility's state 
of repair or disrepair, leasing and contract leases and 
oversight lapses by management at the Veterans Health 
Administration.
    I am sure you are all aware of the numerous issues that 
have been reported in the media regarding the Northport VA 
Medical Center. For instance, the operating room was shut down 
for months earlier this year due to rust and concrete particles 
being pumped out of the air conditioning ducts. The VA has told 
Committee Members that there were never any problems with the 
air quality and that reports to the contrary were overstated.
    You are probably also aware of the air conditioning and 
cooling issues in the ultrasound suites. While VA will tell you 
that the air temperatures were never at unsafe levels, 
whistleblowers have informed this Committee of information to 
the contrary. At times, temperatures have reached higher than 
80 degrees, rendering the ultrasound machines unusable.
    Further, the facility has chosen to rent temporary air-
cooled chillers. Internal VA documents obtained by 
investigators revealed that the chillers have cost $1.9 million 
so far, and estimates that they will pay at least $2.8 million 
while they await the permanent system replacement.
    We are also certainly aware of reports of dilapidated 
buildings, flooded walking tunnels, and other infrastructure 
problems that you have either read about or noticed upon 
entering this auditorium today.
    All of these problems have been brought to the attention of 
this Committee by conscientious whistleblowers who, after 
seeing no action from their supervisors, made the correct 
decision to inform the public and the Congress of the unsafe 
conditions that exist here.
    However, in addition to these obvious problems that have 
been reported in the press, as well as several suicides that 
have occurred on the campus, there are additional problems that 
VA has chosen to withhold from this Committee. For months, the 
Committee has investigated numerous additional problems at 
Northport related to funding malfeasance, the lack of control, 
and unreported suicides by veterans and employees. We have VA 
documentation showing that in the face of declining veteran 
populations and potential budget deficits related to fewer 
veteran-related funds at Northport, that Department leadership 
found a way to cold-call roughly 2,100 veterans who had not 
sought VA care in the past year. By improperly labeling these 
solicitation phone calls as an encounter, the facility was able 
to receive more than $4,200 per contact from VA system to 
allocate health care between medical facilities, the Veterans 
Equitable Resource Allocation or VERA system. Northport 
executive board meetings show that this effort, which is 
essentially VA leadership claiming money for providing health 
care to veterans that it did not provide, will result in an 
increase in VERA funding of approximately $843,129 as of the 
2nd of this month, with a stated goal of nearly $10 million.
    Facility staff raised concerns that this was wrong, but no 
apparent effort was made by leadership to put an end to it. 
This casts a long shadow over the validity of VA's claim that 
millions more veterans have been receiving appointments in the 
past two years, as the Secretary has repeatedly proclaimed. It 
also begs the question as to whether this practice takes place 
at other VA hospitals as a means of increasing their funding.
    Unfortunately, this year has seen numerous suicides and 
near-death experiences by veterans and employees, some of which 
have not been reported to Congress or to the public. In 
January, a veteran overdosed on heroin while a resident of the 
Beacon House, a homeless veterans center run by a non-profit 
but is located here on the campus of Northport. In March, a 
second veteran died from an overdose of fentanyl on a Friday. 
His body was not discovered until Monday. In August, a veteran 
took his own life by a self-inflicted gunshot wound on VA 
premises. Allegedly, the veteran had sought care the day he 
took his life but was turned away. There is an additional case 
the Committee is aware of involving the death by suicide of a 
non-veteran employee who was committed to the Northport VA 
Hospital and confined for nine days under questionable 
circumstances. Additional questions remain as to how one of the 
veterans who overdosed obtained numerous vials of heroin and 
others obtained fentanyl, a Schedule II narcotic.
    I guess it is not surprising that Committee investigators 
have documented poor control of the pharmaceuticals at 
Northport, which could contribute to diversion of drugs, as 
well as the potential for illicit drug trade on or near this 
campus. We are going to talk about these incidents and other 
issues today, and during this hearing, but for now, I will 
yield to the Ranking Member from California, Mr. Takano, for 
any opening statement he may have.

    OPENING STATEMENT OF MARK TAKANO, ACTING RANKING MEMBER

    Mr. Takano. Thank you, Mr. Chairman, for calling today's 
hearing. I would also like to thank my friend, Mr. Israel, for 
joining us, and all Members and witnesses here today who are 
participating in this hearing.
    First I would like to extend my condolences to Mr. Kaisen's 
family on their loss. This is a tragedy. One veteran's suicide 
is one too many. We may never know why Mr. Peter Kaisen felt so 
helpless that he decided to take his own life here in the 
Northport VA Medical Center parking lot. However, we must get 
to the bottom of whether more could have been done to prevent 
this veteran from committing suicide.
    This tragedy is a sobering reminder that with 20 veterans 
committing suicide every day, we must continue to provide 
vigilant oversight of VA's mental health and suicide prevention 
programs to ensure that veterans have access to high-quality 
and safe services offered at any VA medical center in the 
system.
    I understand that Northport was recently recognized 
nationally for the development of a unified behavioral health 
center for military or veteran families, in cooperation with 
the Northwell Health System. I look forward to hearing more 
about this unique collaboration as we continue our work to 
reform the VA. This public-private partnership may serve as a 
model for the rest of the VA's health care system. Sharing best 
practices is critical to ensuring the best care is rendered to 
our veterans. Thank you, Dr. Bellehsen, for coming to speak 
about your program today.
    Today we will also discuss infrastructure issues that have 
been plaguing the facility. I understand the facility is an 
older one and upkeep of the buildings can be costly, but the 
safety of veterans and employees who provide and receive 
services in the facility should be first and foremost. I 
understand that Members of Congress were not notified that the 
operating room was shut down due to safety concerns until a 
news article was published about veterans being sent to other 
facilities to get their surgeries completed. This is 
unacceptable. VA should be as transparent as possible when 
something as serious as an operating room is shut down due to 
safety. As lawmakers, we need to be made aware of these issues 
so we can ensure VA has the resources it needs to care for our 
veterans.
    Mr. Chairman, thank you again for holding this hearing, and 
I look forward to the testimony from the witnesses, I yield 
back.
    The Chairman. Thank you very much.
    We have had a request from a veteran, and probably all of 
you would like to do this, and I think we will do it so that 
Mr. Colin Kaepernick can hear the Pledge of Allegiance. So 
let's rise and salute our flag.
    [Pledge of Allegiance.]
    The Chairman. I would ask that all Members waive their 
opening statements as per the custom of this Committee.
    I am now going to introduce our first and only panel of 
witnesses who are at the table. We will hear from Dr. Joan 
McInerney, Network Director for VISN 2. She is accompanied by 
Phillip Moschitta, Director of the Northport VA Medical Center; 
and Dr. Charlene Thomesen, Chief of Psychiatry at Northport VA 
Medical Center. We are also going to hear, as my colleague has 
already said, from Dr. Mayer Bellehsen, Director of the Mildred 
and Frank Feinberg Division Unified Behavioral Health Center 
for Military Veterans and their Families.
    I would ask the witnesses if you would please stand so we 
can swear you in, and raise your right hand.
    (Witnesses sworn.)
    The Chairman. You may be seated.
    Let the record reflect that all of the witnesses answered 
in the affirmative.
    Written statements of VA and Dr. Bellehsen will be made a 
part of the hearing record.
    Dr. McInerney, you are now recognized for 5 minutes.

              STATEMENT OF JOAN E. MCINERNEY, M.D.

    Dr. McInerney. Thank you. Thank you for the opportunity to 
discuss recent issues at the Northport VA Medical Center.
    I was appointed as the Network Director of the Integrated 
VISN 2 VA New York/New Jersey health care system in May of 
2016. I am a Board-certified Emergency Medicine physician with 
24 years of experience prior to joining the VA in 2011 as the 
VISN 3 Chief Medical Officer. I am accompanied by Mr. Phillip 
Moschitta, Medical Center Director, and Dr. Charlene Thomesen, 
Associate Chief of Staff for Mental Health.
    Regarding the recent tragedy involving one of our veterans, 
I wish to share some of the facts with the Committee. As 
reported in the press, a veteran took his life in the parking 
area at Northport on August 21st, 2016. Sadly, this is a true 
statement. However, allegations that he was turned away from 
our emergency department are false. A review of all available 
records reflects that the veteran did not reach out for help 
prior to taking his life.
    In a recent--
    Voice. What--
    The Chairman. Ma'am, if I could ask you to please wait and 
allow us the opportunity to talk with the witnesses, I would 
appreciate it very much.
    Dr. McInerney. In a recent communication to Chairman 
Miller, it was alleged that two other veterans committed 
suicide at Northport this year. While I must respect the 
privacy details of their deaths, one of the individuals 
identified was a non-veteran employee who died in the 
community. The other veteran death was determined by the 
Suffolk County Medical Examiner not to be a suicide.
    Northport has a long history of providing excellent 
clinical care and mental health at our main facility and our 
five community clinics. We are committed to providing excellent 
quality care to our veterans and have developed a comprehensive 
behavioral health continuum of care.
    Northport's mental health walk-in clinic has been in 
existence for 25 years. An on-site psychiatrist is available 
24/7 at the medical center should a patient present at any time 
requesting psychiatric help.
    Northport has a strong reputation of caring for Long 
Island's 31,500 veterans who come to us for care. Outpatient 
visits increased 3.1 percent, and appointments for female 
veterans increased 8.4 percent over the past two years.
    In Fiscal Year 2016, Northport completed over 318,000 
outpatient appointments, with 99.2 percent of them within 30 
days. Mental health access is at 99.95 percent. Specialty care 
access is at 98.4 percent. Our outpatient access surveys show 
that 93 percent of Northport's veterans receive a routine 
primary care appointment as soon as needed.
    On February 17th, 2016, Northport OR staff detected sand-
sized particles coming from the heating ventilation and air 
conditioning system in OR 4. Facility leaders rapidly assessed 
possible risks to patients and staff, and made the necessary 
decision to close all five of the ORs for veterans' safety. 
Patients who needed emergency surgery were transferred to 
affiliate and local hospitals for care. Patients scheduled for 
elective procedures were offered care through other VISN 2 
facilities or in the community through the Veterans Choice 
program. Many patients opted to wait for the reopening of the 
Northport ORs. All decisions regarding surgeries were made with 
input from the patients and their physicians. Clinical review 
of surgical cases that were postponed has not identified any 
adverse effects or outcomes.
    Through consultation with subject-matter experts within and 
outside of the VA, Northport developed a three-phase plan to 
resolve the issues to ensure that ORs could be reopened. The 
long-term plan for the ORs will be included in Northport's 
strategic capital investment plan.
    Northport is an aging facility with many infrastructure 
requirements. The engineering staff estimates a complete OR 
replacement project could cost approximately $15 million to $18 
million. To address critical infrastructure needs in Fiscal 
Year 2017 such as replacing electrical and HVAC systems, 
several roofing projects, and upgrading emergency generators, 
we estimate the facility will need approximately $45 million.
    Finally, to address the deficiencies identified through the 
Facility Condition Assessment Plan, Northport would require 
approximately $290 million to correct deficiencies categorized 
as ``past useful life'' and/or projects needing immediate 
attention.
    VA remains committed to ensuring America's veterans have 
access to the health care they have earned through service. We 
are committed to accountability and transparency, and providing 
any requested information to Members of Congress.
    This concludes my testimony. We will be pleased to respond 
to any questions you may have.

    [The prepared statement of Dr. McInerney appears in the 
Appendix]

    The Chairman. Dr. Bellehsen, you are recognized for 5 
minutes.

              STATEMENT OF MAYER BELLEHSEN, PH.D.

    Dr. Bellehsen. Thank you. Good morning. I am Mayer 
Bellehsen, Director of Northwell Health's Mildred and Frank 
Feinberg Division of the Unified Behavioral Health Center for 
Military Veterans and their Families, also abbreviated as the 
UBHC, which is located 21 miles south of where we sit today in 
Bayshore, Long Island.
    I want to thank Chairman Miller, Ranking Member Takano, and 
Members Zeldin, Rice and Israel for convening on Long Island 
this field hearing of the House Committee on Veterans Affairs.
    Long Island is home to nearly 150,000 military veterans, so 
it is important that the Committee is here focusing on their 
health care needs and, as importantly, on the needs of their 
family members who are too often overlooked.
    While I am not an employee of the Veterans Health 
Administration, I consider it an honor and privilege to serve 
alongside my Northport VA colleagues in an effort to assist our 
Nation's veterans and family members who have sacrificed for 
us. I am excited to present to the Committee a modest but 
effective veteran family health care model that Northwell 
Health and the Northport VA jointly established in 2012. I 
would like to thank the leadership from both Northwell Health 
and the Northport VA, including Michael Dowling, Dr. Blaine 
Greenwald, Director Phillip Moschitta, and Dr. Charlene 
Thomesen. I believe this joint enterprise reflects highly on 
the vision and boldness of leadership in both institutions, as 
well as their commitment to serving the veteran community.
    We welcome the opportunity to give the Committee Members 
and/or its staff a tour at a future date. Based upon the 
success of our program, we urge the Committee Members to 
consider the possibility of replicating our successful model in 
your districts and, indeed, throughout the country.
    The mission of the center is to operate a model public-
private partnership between the Federal Veterans Administration 
Medical Center, the Northport VA, and a private-sector health 
system, Northwell Health, that successfully serves the 
behavioral health needs of military and veteran families. The 
novelty of this partnership included the proposals of co-
location of services and crosstalk between staff from both 
institutions for the provision of coordinated care to the 
veteran family under one roof. I am pleased to share that in 
our nearly four years of operation, we have been largely 
successful in meeting our objectives. I would like to highlight 
two achievements in particular.
    First is the establishment and maintenance of a unique 
public-private partnership. In 2012, the center was built and 
opened. This entailed construction of a 3,680-square-foot 
center for co-location and coordination of behavioral health 
services for the veteran and his or her family. The center was 
staffed by personnel from both institutions and began 
implementing its coordinated care model by December of 2012.
    Within this center, the VA offers primary care and 
behavioral health services to the veteran in a community-based 
outpatient clinic called the VA Clinic at Bayshore. Meanwhile, 
Northwell Health offers behavioral health services to the 
family members at the Mildred and Frank Feinberg Division of 
the Unified Behavioral Health Center. These two centers are 
located side by side under one roof with shared spaces for 
collaboration.
    Through a collaborative care model, the two institutions 
then meet weekly and as needed to coordinate care of shared 
cases. Co-location and collaboration has contributed to 61 
percent of Northwell Health's clients being referred from the 
VA, which reflects on the success of the partnership in 
reaching this population. This was done for a modest investment 
of nearly $2.3 million over three-and-a-half years.
    The second achievement is increased access to care. From 
inception through August of 2016, there have been 9,470 visits 
among 303 unique patients in the Northwell Health section of 
the UBHC. Meanwhile, there have been 10,017 visits among 1,040 
unique patients at the VA section of the UBHC. Nearly half of 
the referrals to Northwell Health from the VA have resulted in 
collaborative care cases. Furthermore, 73 percent of the 
clients seen by Northwell Health clinicians are family members 
or have a close relationship to a veteran or military member, 
and 47 percent report no prior treatment. Additionally, due to 
co-location, clinicians from the Northwell Health side can 
regularly encourage veteran engagement with Northport VA when a 
family member reaches out independently or when a veteran finds 
their way to Northwell Health.
    Although definitive conclusions are difficult to make 
without comparisons to other programs, the data suggest that 
the center is reaching individuals that may not regularly 
engage in treatment.
    In summary, the Unified Behavioral Health Center is a novel 
public-private partnership that includes co-location of 
services and coordination of care between institutions that has 
resulted in increased benefits to the veteran community. The 
implementation of the public-private partnership such as these 
is a critical step for expanding family services to the veteran 
community. The model that has been piloted by Northwell Health 
and the Northport VA has demonstrated the viability of these 
partnerships to expand care to veteran families, and has had a 
significant impact on veteran family care on Long Island.
    Further independent evaluation of the center is 
forthcoming, but I believe this model represents a promising 
avenue for supporting our Nation's veteran families.
    I thank you again for the opportunity to discuss our center 
and welcome any questions you may have.

    [The prepared statement of Dr. Mayer Bellehsen appears in 
the Appendix]

    The Chairman. Thank you very much.
    Mr. Moschitta, or Dr. McInerney, when a patient presents 
themselves to the emergency room, explain the process that the 
patient goes through. How do you track when somebody comes into 
the emergency room?
    Dr. McInerney. A patient would arrive at the emergency 
department, either walking or by ambulance, and they would 
register, and they would be--
    The Chairman. And how do they register?
    Dr. McInerney. They tell the front desk clerk that they are 
there, and their name, and their last four, and then they would 
be referred to a triage desk where they would see a nurse. 
Their vital signs would be recorded, their chief complaint. Any 
unstable patients would be taken immediately to the physician, 
and the other patients would then be seen in order.
    The Chairman. How many emergency room visits do you receive 
in a day?
    If you would, just leave all the mics on.
    Mr. Moschitta. We see approximately 57 emergency room 
visits a day.
    The Chairman. And is this how you register somebody, 
through triage, through this triage ticket?
    Mr. Moschitta. I am not sure myself about the triage 
ticket.
    The Chairman. Doctor?
    Dr. McInerney. I am not sure either.
    The Chairman. This is a triage ticket. It has the name and 
what the complaint is of the person that is coming in. You 
record their temperature, their pulse, their respiratory 
numbers, pain, oxygen saturation.
    Dr. McInerney. Yes, that is usual.
    The Chairman. Then it says ``Place ticket in time stamp 
machine, then place in blue container.'' You still use paper 
like this here?
    Mr. Moschitta. Yes, there are some paper documents.
    The Chairman. Then what happens if this gets thrown away? 
Where is it registered?
    Dr. McInerney. You would still have the patient in front of 
you waiting to be seen.
    The Chairman. Unless they went to the parking lot.
    Mr. Moschitta. Let me just speak on this a little bit. If 
the real question here is what happened to that individual on 
that Sunday, I think that is what we are alluding to.
    The Chairman. I am not alluding to it.
    Mr. Moschitta. Okay, but we are going to talk about that a 
little bit, I guess.
    The Chairman. Let's talk about it a lot.
    Mr. Moschitta. Okay. On that particular case, there is 
definitive video surveillance that shows this--
    The Chairman. And where is that video?
    Mr. Moschitta. The police have it. It was also turned over 
to the FBI. On that Sunday--
    The Chairman. Okay. How does this Committee get that video?
    Mr. Moschitta. I would assume, through protocol, you would 
request it and--
    The Chairman. We are requesting the total video, unedited.
    Mr. Moschitta. Okay. Once again, I don't really know the 
protocol for this. I assume it is--
    The Chairman. You just told me all I had to do was ask.
    Mr. Moschitta. No, I didn't say ask. I said you would have 
to request it. I know we have had some difficulties in the past 
where it has to be in writing. That is between you and our 
office in central office. But we have the document.
    The Chairman. Mr. Moschitta, here is my promise to you.
    Mr. Moschitta. Yes.
    The Chairman. Whatever it takes, even if we have to 
subpoena it. So get the video ready, because we are going to 
ask for it or request it.
    Mr. Moschitta. No, and we really want this to come out. You 
see, we are prohibited from really talking about any patient 
care issues.
    The Chairman. Even when the deceased's wife is here and she 
would allow you to speak very openly about it?
    Mr. Moschitta. We just do not--it is not our policy to talk 
about patient care issues in a forum like this.
    The Chairman. You just said you were prevented. You are not 
prevented. You have a policy that won't allow you to do it. 
There is not a law because HIPAA--the patient is deceased--
    Mr. Moschitta. I don't believe that ends with the patient 
deceased, and there is a certain amount of respect we give to 
our veterans. We will gladly talk to you in private about his 
care, but in a public forum like this, I will not discuss his 
care. I will talk in generalities on this--
    The Chairman. Okay, then let me do this, let me do this.
    Ma'am, would you allow them to talk publicly about what 
occurred?
    Mrs. Kaisen. Definitely, definitely. I do not want this to 
go in vain.
    The Chairman. It will not go in vain, I can promise you 
that, ma'am.
    Mrs. Kaisen. Thank you.
    Mr. Moschitta. Okay. Once again, I will not talk in 
specifics of this patient.
    The Chairman. Because?
    Mr. Moschitta. Because, once again, it is not our policy to 
discuss patient care and patient care issues in public like 
this. I will talk to you privately. I will gladly have any 
family member there--
    The Chairman. But you are very quick to talk to the fact 
that he did not present, so you are talking about his care.
    Mr. Moschitta. What I am trying to explain--I am not 
talking about his care. I am talking about the events that 
occurred that day, okay? And on that particular day, there is, 
once again, definitive video evidence--because when you came on 
board this premise, there was a checkpoint. Well, that 
checkpoint now records you were here. So we know exactly when 
people come aboard, and we also know when the person was 
reported--the incident occurred. That was a total of 12 
minutes.
    We also have video surveillance in the ED area which shows 
the individual did not present. Now, I don't really want to go 
beyond that because then I would be discussing his care. But 
the FBI was called immediately, along with the Suffolk County 
Police and the Inspector General. They came on board that 
Sunday. There is also forensic evidence that they mentioned 
that shows how long he stayed in a certain area. So it was 
physically impossible to go from the incident to the ED.
    Now, I want to thank Congressmen King and Israel for asking 
for an FBI investigation because they did come in, and we are 
awaiting their report, because that report will, I am positive, 
show that the accusation that our staff turned away a veteran--
which is repulsive to me, okay? Our staff would never do 
something like that. That is not our history, and that is just 
very insulting to think that. I think it will vindicate or at 
least set the record straight that it did not occur.
    The Chairman. All right. Thank you.
    Mr. Takano?
    Mr. Takano. Mr. Moschitta or Dr. McInerney, can you just 
explain the privacy constraints that you have even if a family 
member in a public setting like this might give her assent to 
talk about a family member's health history? What are the 
constraints that you are under as far as privacy under the 
HIPAA laws?
    Dr. McInerney. We don't typically talk about patient issues 
in a public forum. We have offered to meet with you privately. 
We can do it today, and we can give you further information. We 
would be happy to meet with Mr. Kaisen's wife.
    Mr. Takano. That's fine.
    Mr. Moschitta. To go even further, not only did our staff, 
but other staff individuals looked through the medical record. 
All his care was appropriate. Now, once again, not all 
patients--and I am not talking particularly here--come to us 
for every single issue that they might have. Some people choose 
not to get care for certain issues. You have the copy of the 
medical records. If you look through the records, you will see 
the care he got was excellent.
    Mr. Takano. I understand that. But I am just saying that we 
can't, as a matter of policy for any veteran in a public forum, 
discuss their case.
    Mr. Moschitta. Just out of respect, similar to the articles 
in the papers where they are mentioning people's conditions. We 
find it, in VA, repulsive.
    Mr. Takano. I want to yield--to Kathleen, Miss Rice. 
Kathleen, may I yield to you? You seem to know this point of 
law as a lawyer.
    Miss Rice. Yes, sure. What you are saying is that is your 
policy. It is not the policy; it is the law, okay? And with all 
due respect to the family, whether you are a veteran or not, 
there are certain protections in the law that preclude anyone, 
certainly sitting on this panel, from going into the medical 
care or condition of any patient, whether they were served at 
the Northport VA or any other hospital anywhere.
    With all due respect to his widow--and my condolences to 
you--you are not legally able to waive the protections that the 
law gives your husband. They actually outlive him for the next 
15 years. So I think we should just move on from that. I think 
it is an appropriate area of inquiry to go into the video, 
which I appreciate you responding to the Chairman's request 
that you hand that over, because I think it can be 
enlightening. But I think we should just stay away from any 
medical issues, and it is not a choice you are making, sir. It 
is the law, and everyone should understand that, because 
everyone in this room would want that protection for 
themselves.
    Mr. Moschitta. I appreciate that. Thank you.
    [Applause.]
    Mr. Takano. I think my colleague from New York--and I 
respect tremendously her background as a lawyer, as a 
prosecutor who understands the HIPAA statute.
    Dr. McInerney, regarding the suicides and reports of deaths 
of those affiliated with the Northport VAMC, what are you doing 
to ensure that veterans and families are aware of the available 
services offered here at Northport?
    Dr. McInerney. We have a very robust behavioral health 
continuum at Northport, and that includes access to a 
psychiatrist 24/7, an open access clinic daily, substance abuse 
services on a regular basis. Dr. Thomesen could talk a little 
bit more, but you directed it to me.
    One of the other things that we have in VA which is 
wonderful, and Northport excels at, is the primary care mental 
health integration, where a mental health provider is at the 
primary care clinics and they can have a conversation with a 
veteran about life stresses--they lost a job, they lost a 
spouse, they can't pay the rent--before they really need to see 
a psychiatrist. You can determine that a patient is really in 
need of more services from the VA.
    Mr. Takano. Dr. Thomesen, would you like to elaborate?
    Dr. Thomesen. Yes. Thank you for the opportunity.
    I think one of our biggest struggles is getting the word 
out to every veteran, because any loss of a veteran we take 
personally, and we take deeply, and my condolences to the 
family.
    We constantly strive to improve access, to add to services. 
We have provided a psychiatrist available 24/7 on site. They 
are not being called. They are here in the building. They will 
receive phone calls, as well as see people in person because we 
know that even though there is a veterans crisis line 
nationally, our veterans of Long Island really feel Northport 
is their home, and they call us.
    We are available to them. We have run a walk-in clinic, as 
Dr. McInerney said, for over 25 years so that veterans without 
appointments, because we know our mental health patients may 
not make their appointments, they can come in when it is 
convenient for them at any time and see a physician. You are 
not going to find that in the community.
    We have a mental health presence, including psychiatrists 
and other staff, at every one of our CBOC locations, from East 
Meadow to Riverhead. We track those appointment times, we 
monitor them, and when we need to, we add days because we never 
want to make a veteran wait for mental health care because when 
they are ready, they are ready.
    What we did at Bayshore was another way to try to reach our 
veteran patients who are often reluctant, our Vietnam veterans 
who don't trust the government. It is hard for us to get them 
to trust us. So we have the Bayshore clinic so if a family 
member wants to self-identify and know how they can help their 
veteran, they can come first, the idea being that with time, we 
can coax and get that veteran in, because that is our goal, is 
to get every veteran help and never have a suicide.
    Dr. McInerney. I would add that the VA is incredibly 
committed to trying to assist veterans before they are so 
stressed that they consider suicide. One of the pilots that the 
VA is working on nationally is called Reach Vet, and it is 
expected to be rolled out over the next two months to all the 
facilities, including Northport.
    What it is, is a statistical model that they built with the 
National Institute of Mental Health. This actually takes 100 or 
so demographic findings on any patient, and they can predict 
more accurately than just clinical modeling which patients are 
at higher risk so that the facilities are able to reach out to 
them and offer them more services before it becomes a crisis.
    Mr. Takano. Thank you, Dr. McInerney.
    Mr. Moschitta. Can I just add one thing to this? Because 
Dr. Thomesen has been the chief of psychiatry for many years 
and has done a lot of great work.
    But when I got here eight years ago, we really fast-
forwarded to move around our CBOCs so we do have access 
throughout all of Long Island. Four of the five CBOCs were 
relocated, so we now have coverage from the Cross Island 
Parkway, which is as far west as we go, to basically Montauk 
Point. We also added and assured that all CBOCs had mental 
health coverage so that there is availability of getting into 
the system regardless of where you live on Long Island. That is 
also why we never had issues with access. We were very 
proactive, thanks to the leadership here and the advice of 
really good people.
    Mr. Takano. Thank you for that response.
    The Chairman. Mr. Zeldin, you are recognized for 5 minutes.
    Mr. Zeldin. Thank you, Chairman. Thank you to the Veterans' 
Affairs Committee for being here for this field hearing. I 
thank all of our witnesses, as well as all of our veterans in 
the audience.
    First off, I would just like to say that through the years, 
up until very recently, I continued to hear from the veterans 
in my district who have nothing but the best to say about the 
quality of care that they have received here at Northport VA. 
It is over the course of the last few months that we started to 
receive an increase in feedback from individuals that resulted 
in some pretty serious allegations, which is why we are here, 
to get answers.
    First off, just to pick up where the questions were leaving 
off regarding the recent suicide, is this video a continuous 
feed for the entire 12 minutes?
    Mr. Moschitta. Yes. The video I think goes back about maybe 
two weeks. So we actually retrospectively looked to see if the 
person was on campus weeks prior. We looked through the 
scheduling package to see if maybe we missed something prior.
    Mr. Zeldin. I am just asking about the 12 minutes--
    Mr. Moschitta. No, it is a continuous feed.
    Mr. Zeldin. Okay. So there are no breaks in the video.
    Mr. Moschitta. No. Actually, what happens is you see it 
from the checkpoint. The vehicle was picked up on another 
camera as it moved along the campus, to where he finally parked 
the car. So that is a continuous feed.
    Mr. Zeldin. How many camera shots? Two?
    Mr. Moschitta. No, no. It is a film.
    Mr. Zeldin. I understand, but there are multiple cameras.
    Mr. Moschitta. I would say two. We don't have a camera in 
that parking lot.
    Mr. Zeldin. Is there any period of time while the veteran 
was here on site that is not accounted for on video?
    Mr. Moschitta. What I am trying to say, is we know when he 
entered the campus, we know via video where he went, and we 
know the time the individual was seen, and that is a 12-minute 
period.
    Mr. Zeldin. Is there any period of time where the veteran 
is not on video that is not accounted for?
    Mr. Moschitta. Well, in the parking lot.
    Mr. Zeldin. How much of the 12 minutes is the veteran not 
accounted for?
    Mr. Moschitta. I am not sure. It is about a quarter of a 
mile from the ED to where the parking lot is. So, you know, 
when you start to whittle down the time, if you come in on the 
campus, you have 12 minutes to work with, because we know 
definitely when someone saw the individual. It takes about 2 
minutes to go across the campus. There is some forensic 
evidence. And that is why I say I would really rather defer to 
the FBI report. This way it is not my impression, my 
interpretation. They are going to, I am positive, give all the 
facts to show that it was physically impossible to move around 
the campus in less than 9 minutes.
    Mr. Zeldin. I am just asking how much of the 12 minutes was 
the veteran not accounted for.
    Mr. Moschitta. I really can't answer that. I am not sure.
    Mr. Zeldin. Whistleblowers allege that the veteran did 
report to the ER, as you are aware of, and signed his name on a 
paper ER log, which was allegedly destroyed to cover up the 
veteran's visit to the emergency room. Did the veteran report 
to the emergency room?
    Mr. Moschitta. He never reported to the emergency room. 
Once again, you have staff that checked him in. You have 
doctors, you have nurses, and we have a camera in that area 
that showed there was nobody there.
    Now, also, if you are familiar with the facility, we call 
it the red canopy area. That is how he would have entered the 
building there to go to the ED. There is a camera there, and in 
that 12-minute period he never entered the building.
    Mr. Zeldin. The paper logs are deposited into the blue box?
    Mr. Moschitta. I am not aware of that actual process, so I 
don't want to comment on it.
    Mr. Zeldin. Is anyone able to--if someone wants to go to 
the emergency room--
    Mr. Moschitta. I can get you the exact process relatively 
quickly.
    Mr. Zeldin. Are you aware of the blue box in the emergency 
room?
    Mr. Moschitta. No.
    Mr. Zeldin. Is anyone, any of the witnesses, aware of a 
blue box?
    Dr. McInerney. I am not.
    Mr. Zeldin. Was any employee here at Northport instructed 
not to speak with media or to Congress at any time once you 
became aware this hearing was going to take place?
    Mr. Moschitta. No, no, absolutely not.
    Mr. Zeldin. We have heard from employees claiming that 
there was a considerable effort made by facility leadership to 
threaten employees not to speak to media or the Committee.
    Mr. Moschitta. Can I respond to that?
    Mr. Zeldin. Sure.
    Mr. Moschitta. That absolutely did not occur. I think what 
is interesting here as we go along, there will be a pattern of 
things that are said that I believe we can show did not occur. 
You know, your opening comments, Chairman Miller, were 
excellent. Based on what you said, I would be here too as a 
Committee Member. It does merit being here, and we welcome you 
here because we can show that we do everything for the best 
interest of the patients. Some of these accusations are just 
beyond belief, that we would have an emergency department--
because it is not just one person--conspire not to treat 
somebody. Think of that, how repugnant that is.
    So all I am saying, is we welcome you here, and we hope all 
of these types of issues come up. As you indicated, you 
received a letter that said we had two other suicides here, and 
they weren't suicides here. They weren't two veterans. One was 
a staff employee. The other one, by the coroner's exam, 
indicated that he died of other issues.
    So you are going to see a continuous array of falsehoods 
because people have other issues here.
    Mr. Zeldin. And I appreciate you bringing that point up 
because I did want to--I actually have a lot of questions and a 
limited amount of time.
    I will yield back and wait for the next round.
    The Chairman. Miss Rice, you are recognized.
    Miss Rice. Thank you so much, Mr. Chairman. I want to thank 
you for coming all the way here to New York to a facility that 
I think everyone will agree serves the veterans really at the 
top notch, one of the top-notch facilities across the country.
    So, I just want to start by--and, Mr. Moschitta, I think 
you can probably correct me if I am wrong. It was my 
understanding that Members of the Committee staff were here a 
couple of weeks ago, spent two or three days here?
    Mr. Moschitta. Yes.
    Miss Rice. The VA staff, right?
    Mr. Moschitta. The Chairman's staff.
    Miss Rice. The Chairman's staff. And they were given access 
to the facility, the areas that they requested to see?
    Mr. Moschitta. Absolutely.
    Miss Rice. And they were able to speak to employees here 
unfettered, without any--
    Mr. Moschitta. Yes. They requested not to be escorted. They 
requested just to be brought from Point A to Point B, and we 
complied with that.
    Miss Rice. Okay. And they were given access to the various 
facilities, or areas of the facility that they wanted to see?
    Mr. Moschitta. Wherever they wanted to go.
    Miss Rice. Okay. So I would assume that because there is an 
FBI and law enforcement investigation into the incident that we 
were talking about, that if the videotape were to be procured 
by this Committee, that would actually have to be facilitated 
through law enforcement, which confiscated the videos. Is that 
correct?
    Mr. Moschitta. Once again, you are the lawyer--
    Miss Rice. Did you give the videos to law enforcement?
    Mr. Moschitta. I am not sure if we gave the original or a 
copy. I am not sure. I can find that out for you.
    Miss Rice. Well, to the best of your knowledge, it is part 
of the criminal--potential law enforcement investigations going 
on.
    Mr. Moschitta. Yes, and we are told that the investigation 
is over. We are just waiting for the report. We had hoped we 
would have the report prior to this so we could share with 
everybody.
    Miss Rice. Okay. So maybe what we could do as the 
Committee, is request that tape, because from your explanation 
of it, it seems to be pretty dispositive of the issue. I am 
sure that no one on this Committee is insinuating by anyone's 
questioning that this facility or anyone employed here would 
intentionally turn away a person in need. I am sure that is not 
where any of this questioning is going. We would just like to 
get answers, and I am sure that that video will answer some of 
those questions, so thank you very much.
    Mr. Moschitta. And I respect that very much because this is 
how we are going to get the truth out.
    Miss Rice. Right.
    Mr. Moschitta. These kinds of falsehoods hurt the facility 
and hurt patient care, because when you start putting this 
stuff in the papers without the proper follow-up, people take 
it as fact. You are going to have veterans out in the community 
who are going to say, I am not going to come to Northport if 
they are turning away people for care.
    Now, all of you know our reputation. We are patient-
centered, focused on our patients, and that would never happen 
under my watch or, believe me, anybody else's watch here, 
because our staff and our volunteers--we have the most 
committed volunteers in the country. They would never allow it.
    So all I can say is that we want to clear the air here.
    Miss Rice. Okay. Thank you.
    Now, Dr. Bellehsen, I really would love for you to talk 
more about the public-private partnership that you initiated, 
because I believe that this is going to be--should be a role 
model of a pilot program of a public-private partnership that 
we can hopefully export throughout the country. To me, the 
unique nature of it is that it doesn't just address the needs 
of the individual veteran, but the needs of their family as 
well, because we all know that when the brave men and women in 
this country wear the uniform of this country and they go to 
theaters of war all over the world, their family who is left 
behind is serving just as much as they are. When their loved 
one comes back and is trying to go into the reintegration 
process, that must include the family unit so that we can do 
everything that we can to allow this reintegration to be 
successful.
    So if you could just, using the remainder of my time, in 
your best way just explain why this is such a success and how 
it works.
    Dr. Bellehsen. Thank you. I appreciate the opportunity to 
talk about our program. I do believe it is really cutting edge. 
The conversations regarding the collaboration began way back in 
2010, which was ahead of the curve in terms of the recognition 
of the need to be advancing care really through partnerships 
and through family members.
    Dr. Thomesen was involved at that early level, in fact, in 
establishing the program and the grant to catalyze our efforts. 
Thankfully, I believe we have been very successful in reaching 
out to this community, and I would highlight that we have been, 
through our partnership, able to reach veterans from across 
eras. Oftentimes, our focus may be on recent returning 
veterans, and rightly so, but we have also reached out to 
family members that have been impacted from Vietnam back 
through World War II.
    Miss Rice. If I could just stop you there, because one of 
the issues that we find very often about the services at the 
VA, and facilities in the private sector encounter is getting 
the word out about what services there are, and how to connect 
to the servicemember in an effective way. So maybe you could 
just talk about how it is, and keep your voice up so everyone 
in the room can hear.
    Dr. Bellehsen. Sure. Well, that is another area where we 
have been able to partner closely with the VA to publicize 
information about our program. We have undertaken also a media 
strategy at Northwell to engage press and other events to make 
it known to the family members because, as Dr. Thomesen 
indicated earlier in her testimony, sometimes we will be able 
to help the veteran and the veteran family by a family member 
self-identifying. It is difficult sometimes to engage the 
veteran directly, and this offered us another path to engage 
the entire family unit.
    Miss Rice. Okay. I think we are going to have another 
round. So, Mr. Chairman, I want to thank you again for coming 
here and for being interested in the kind of care that veterans 
get at Northport, and I appreciate you coming here. Thank you.
    The Chairman. Thank you very much.
    Mr. Israel, you are recognized.
    Mr. Israel. Thank you, Mr. Chairman. And to my colleagues, 
welcome to the finest congressional district in America. I am 
glad you are here. I am sorry you are not here under more 
appropriate circumstances.
    Mr. Chairman, I have represented this hospital for 16 years 
in Congress. I will be leaving Congress at the end of this 
year. I must tell you for the record, we have had our ups and 
our downs with Mr. Moschitta and his predecessors. There are 
times when my constituents and I have been satisfied. There 
have been times when my constituents and I have been 
dissatisfied. But I do not doubt for a moment that the vast 
majority of doctors and nurses, and personnel at this facility 
strive to give the best care that they can, the vast majority, 
and where there are deficiencies we need to cure those 
deficiencies, investigate them, and stop them.
    [Applause.]
    Mr. Israel. And I would also say--and then I have some 
questions--while I believe that this hearing is entirely 
appropriate and necessary, I know that my colleagues, and I 
understand that a hearing in a facility is not enough. 
Ultimately, we need to make sure that we are putting our money 
where our questions are, and providing long-term and 
sustainable investments in veterans' care in this country. That 
is the ultimate answer.
    [Applause.]
    Mr. Israel. Now, Mr. Moschitta, I have two questions for 
you. One, is you stated that the FBI has told you that their 
investigation is complete?
    Mr. Moschitta. Yes.
    Mr. Israel. And how long was that investigation?
    Mr. Moschitta. It took about three days, because I believe 
that I wasn't here on that Sunday, but the person who came back 
to investigate was the officer agent on-site when it happened, 
because when it occurred, we followed the policy, and we called 
the FBI and all law enforcement agencies. They took over the 
scene.
    Mr. Israel. So what triggered your decision? You said we 
followed the policy. Tell us what triggered that policy, your 
decision to call the IG, you said, the Inspector General.
    Mr. Moschitta. Yes. In other words, we notify our police, 
and they have their protocols on who to get in to assist us in 
an investigation. So they called the FBI, the IG, the Suffolk 
County Police. Everybody was on-site immediately.
    Mr. Israel. Okay. Mr. Moschitta, I want to ask you a final 
question about how you track patient satisfaction. According to 
some of what I have read, Mr. Kaisen was frustrated with the 
care that he may have received here in the past. He was 
frustrated, according to some reports. You can dispute those 
reports. He had some deep concerns about past care.
    This is a big enterprise. You have 37 emergency room visits 
every day.
    Mr. Moschitta. Fifty-seven.
    Mr. Israel. Fifty-seven. Forgive me. Fifty-seven every day. 
This is a big enterprise, and sometimes big enterprises fail to 
adequately track customer satisfaction. I don't call my 
constituents constituents. I call them customers. Your patients 
are consumers of a service.
    What do you do to receive feedback from your customers? 
What kind of evaluations do you receive so that if somebody is 
frustrated with the amount of care that they are getting, or 
the quality of care, you know about it early?
    Mr. Moschitta. There are formal programs. SHEP, we get 
certain statistics from that. We also have Truthpoint, which is 
real-time data. Now, once again, the individual has to want to 
participate, okay? I also have an open-door policy. I am in my 
office from 6:00 to 8:00 every morning, and anybody can come in 
and see me personally. That is patients, families, volunteers, 
employees.
    Mr. Israel. Do you have a customer service person? Is there 
somebody that someone can go to when they feel that their care 
is not being provided adequately?
    Mr. Moschitta. Plus we have customer service reps. And 
truthfully, what else occurs here is we have our volunteers. 
They are our eyes and ears. The people you see in the back here 
are like employees. They are here seven days a week, and they 
are very vocal when they see something not going on, and they 
know how to get the--gravitate it and get it. So we have many 
mechanisms to look at patient satisfaction.
    Mr. Israel. How many customer service personnel, as you 
represent them, do you have?
    Mr. Moschitta. We have two.
    Mr. Israel. Two for a patient population of--
    Mr. Moschitta. Well, we have roughly 31,500 that come 
throughout the course of a year, obviously not every day. So we 
have two full-time people. But we consider, truthfully, all of 
our staff customer service reps. They bring forward issues from 
our patients.
    Mr. Israel. I have just a final question because my time is 
running out. Are those two people who are customer service 
representatives for a total population of 31,000 specifically 
trained in their field as customer service representatives?
    Mr. Moschitta. Yes.
    Mr. Israel. And that is all they do?
    Mr. Moschitta. And they are clinicians. That is all they 
are, 100 percent of the time.
    Mr. Israel. Thank you, Mr. Chairman.
    Mr. Moschitta. Also, we can provide you data, if you like, 
on our national numbers, because we are probably in the top 10 
percent in customer satisfaction. So we are willing to share 
that data with you.
    Mr. Israel. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Israel.
    I will also associate myself with your remarks as it 
relates to the employees and volunteers at this facility. I 
have been on the ground here for less than 24 hours, and I have 
heard wonderful, glowing things about this facility, and that 
is not necessarily what we are here to talk about today. We are 
here to look into a couple of issues that beg questions from 
this Committee.
    But I, too, want to assure those that work here, serve the 
veterans of this country, that it is my belief that there are a 
few folks within the system as a whole, not being specific to 
this facility, that in fact are not doing what they are 
supposed to do, and our job is to provide oversight and see if 
we can find out who those are and hold them accountable.
    I would like to talk just for a moment, move from the 
suicide here on this campus. Dr. McInerney, I am very 
interested in knowing about the patient engagement initiative--
Mr. Moschitta, you can answer that question--whereby people 
were directed to call veterans. I want to know, was that 
initiated here? Where did that come from? I understand that you 
received $4,500--not you, but the budget got $4,500 per veteran 
that went back into your budget. Can you give us--
    Mr. Moschitta. Now, do you mind if I read a statement? 
Because, actually, I figured this would come up. It will 
explain the program. What this basically is is an outreach 
program. There is a program that you run to see how many of 
your patients, your existing patients, are not returning. We 
break that into two categories, those that are registered in 
primary care, and have not returned in the last year to see 
their doctor. So you outreach them to schedule an appointment. 
That is good care. That is what we should be doing.
    Then we have roughly another 2,000 patients who come here 
for, say, audiology, dental, and have never enrolled in primary 
care. So we are trying to get them into the system so that we 
can provide the care.
    These are non-billable events. The only time that it counts 
really into our numbers is when they come for the visit. So 
what you are trying to do is encourage them to come for help. 
If I am the physician and I am following up with one of my 
patients that hasn't been there in a year, hopefully I engage 
in a conversation, see how he is, see if I can help him. There 
is such a thing called a telephone. But that is not a clinic. 
It is not a visit, per se. I am not a physician, so I am just 
trying to give you the gist of the program. This is to get 
patients back into our system to utilize us.
    The Chairman. And I think that is a good idea if you are 
talking about bringing people back into the system. But 
according to VA documents from this month, in September at 
least, 445 veterans have been contacted, 247 encounters were 
completed, and that amounted to over $800,000 in revenue. Where 
did the revenue come from?
    Mr. Moschitta. There is no revenue here at this point. When 
they come back into the system and we see them, then you start 
operating under the VERA model. Once again, our budget is 
predicated on seeing veterans. So we have a huge initiative in 
outreaching. We want to get as many veterans on Long Island 
into the system.
    I have mentioned to Dr. McInerney prior that I would 
welcome her to have some people come into the facility and look 
at what we do, and I can guarantee you that we are not doing 
anything wrong. As a matter of fact, this is the proper way to 
do it. You should try to engage as many veterans as possible in 
the fine health care we provide here.
    Dr. McInerney. And, Mr. Chairman, I would like to add that 
it really is important to reach out to veterans you haven't 
seen in a while. They are not getting their flu shot, they may 
be drinking, they may be deteriorating. It is important to know 
that. But it is also important from an access perspective, 
because if someone hasn't come for two years and we don't know 
why, to Mr. Israel's point, it is a good way to follow-up on 
patient satisfaction, but it is also important to know did they 
move out of state, did they get admitted to a nursing home, are 
they never coming back to us, in which case those positions 
need to be opened up to improve access.
    There is an initiative across the VA called the Group 
Practice Manager. Every facility has hired one. And really, 
that person--and Northport has a really strong one--really they 
look at the panels to see that they are all active patients, 
that there aren't patients who have left the system who are 
blocking appointments for other veterans. So this is really an 
aggressive thing that has happened since Phoenix, and Northport 
is aggressive about it.
    The Chairman. Can you tell me, what is vesting? I am 
reading through--
    Mr. Moschitta. Well, they have to come in and be seen by a 
doctor, and certain services have to be performed. That means, 
then, they are eligible for VERA reimbursement. Now, as Dr. 
McInerney mentioned, the Group Practice Manager, which she is 
currently working on because she oversees this program, it is 
developing a process so we don't get into the situation where 
we lose track of 4,000 or 3,000 patients. It should be part of 
the everyday work of every team, that they monitor their 
patients and they do what is best for the patients.
    The Chairman. And who makes the calls? Is it doctors who 
make the call, nurses who make the call? Who actually makes--
    Mr. Moschitta. It could be a combination, because they are 
responsible for their patients.
    The Chairman. Could it be non-medical personnel doing it?
    Mr. Moschitta. I think for those who are in our system, but 
not being seen in PACT, it might be possible for a non-
clinician just to explain the services. But I think we do it 
mainly with clinical staff.
    The Chairman. And I appreciate the opportunity. It is very, 
very important. So it is your understanding and your testimony 
to this Committee that if a physician calls somebody to follow-
up and get them to come back to the VA, that is not a 
billable--
    Mr. Moschitta. Correct. There is a telephone encounter.
    The Chairman. Okay, but it is not billable.
    Mr. Moschitta. My understanding is, it is not billable.
    Dr. McInerney. And my understanding as well.
    Mr. Moschitta. I am asking Dr. McInerney to have somebody 
come in from the outside, in other words, and actually oversee 
it to prove this. But this is, once again, another issue where 
there is misinformation that is leading us down a road, and 
that is why we are having this meeting.
    The Chairman. Thank you.
    Mr. Takano?
    Mr. Takano. So, Mr. Moschitta, you would welcome an audit 
to just verify that things that are not billable are not being 
billed?
    Mr. Moschitta. The only way you improve is by having people 
come in and take a look, okay? No matter how bad things are, 
you always learn from it, and you improve from it. So we try to 
have that philosophy of continuous process improvement. If we 
find something wrong, we fix it. But I can tell you there has 
been no effort whatsoever to do something knowingly wrong, and 
I am confident on this one here because the person I get the 
information from is our best data person. He knows his stuff.
    Mr. Takano. Thank you.
    I would like to turn to Dr. Bellehsen. I come from the 
Inland Empire in Southern California. I have a fine VA medical 
center, Loma Linda, but my area is--I hear from VA, I hear from 
community providers about the inadequate levels of mental 
health care. It is a problem that is community-wide, and I have 
to say that I am quite impressed with the experiment that you 
started in 2012, this public-private partnership. I agree with 
my colleague, Miss Rice, that this could be a model for the 
country.
    I found your testimony very helpful. Your role as the 
private provider is to serve the family, while the VA serves 
the veteran, and it is a health eco-system.
    What challenges did you encounter bringing this public-
private partnership about? Can you comment on the challenges 
that you had, briefly?
    Dr. Bellehsen. Thank you. Yes. And I would also add that 
one of the novel proposals in our program is serving them 
together through a coordinated model. So it is not simply that 
we are sitting side by side and the VA is serving veterans and 
we are serving families, but we are also integrating and 
coordinating our treatment the best that we can when permission 
is given by family members and the veteran.
    I think I would highlight the principal challenge that we 
face is that of financial sustainability. We were seeded by 
grants and local funding donors, and we did so with the 
expectation that this would be costly, but it was a commitment 
on the part of our institution, Northwell Health, to serve this 
population. Going forward, we are looking towards achieving 
models of sustainability that would allow these kinds of 
programs to be replicable, in fact, throughout the country.
    Mr. Takano. I understand that some of the revenue that you 
are trying to tap into is actually private health care 
insurance or other health care insurance that the family might 
have, in addition to the veteran having his or her benefits.
    Dr. Bellehsen. Correct, yes. In early 2016 we began 
implementing a process of billing for our services, along with 
offering sliding scales as needed to patients that had any 
challenges to help augment some of the fundraising that our 
foundation and our system has been continuously engaged in.
    Mr. Takano. Of course, under the Affordable Care Act, there 
has been a mandate that mental health services are part of 
every policy.
    Dr. Bellehsen. Correct, and that may have had a role. We 
weren't billing prior to 2016 and the Affordable Care Act, but 
it has made it possible for many of our clients to engage in 
services.
    Mr. Takano. The VA sometimes encounters difficulty in 
recruiting physicians and other providers to work at the VA. I 
don't know if you can answer this question, or maybe it is more 
properly addressed to Dr. McInerney. How do you recruit those 
physicians to your facility, Doctor or Mr. Moschitta?
    Dr. McInerney. Well, many people have the mission of the 
veterans at heart, and they want to work with the veterans. But 
also we have affiliates with various medical schools throughout 
the country, and that encourages physicians and providers, 
nurse practitioners and others, to join along with the VA.
    Mr. Takano. Do you have a problem getting providers to work 
at the facility?
    Dr. McInerney. In Northport, we have very limited problems. 
New York is really a hub of physicians. Occasionally, we will 
struggle with a dermatologist or a urologist or a thoracic 
surgeon. They are a little bit harder to find. But primary 
care, we are fine with that.
    Mr. Takano. Psychiatry? Mental health?
    Dr. McInerney. Psychiatry, we have a wealth of folks.
    Mr. Takano. Thank you.
    The Chairman. Mr. Zeldin?
    Mr. Zeldin. Thank you, Mr. Chairman.
    Picking up where we left off, Mr. Moschitta, the two 
individuals who died here at Northport prior to the most recent 
suicide, is it true that one of these people died and wasn't 
discovered for days?
    Mr. Moschitta. Yes. The person was involved in a vocational 
rehab program, so he was in a work site. It is a clothing room 
that he would man. It was on a Friday. Then he was found on 
Monday. He did not live on the premises here, although it was 
mentioned that he lived in Beacon House. We have a Beacon House 
here on the grounds, but Beacon House runs housing all 
throughout Long Island. He lived off the premises. And I do 
believe--we would have to check, but I do believe it is not 
even a case where we fund his housing. So he was fairly 
independent.
    Mr. Zeldin. Where was he found?
    Mr. Moschitta. If I remember, a storeroom inside that area 
he worked.
    Mr. Zeldin. And was he working at that time?
    Mr. Moschitta. Well, he was working up until, yes, that 
time.
    Mr. Zeldin. But he was here for work?
    Mr. Moschitta. Right.
    Mr. Zeldin. And what did he die from?
    Mr. Moschitta. Well, the medical examiner indicated other 
than suicide. Beyond that, I personally won't comment. So 
clearly, it was not a suicide by the Suffolk County Medical 
Examiner.
    Mr. Zeldin. Okay. But it is possible--I mean, we were 
informed that he had overdosed.
    Mr. Moschitta. All I am saying is that according to the 
Medical Examiner, he did not die from suicide.
    Mr. Zeldin. Okay, but you wouldn't comment whether or not 
he overdosed from fentanyl?
    Mr. Moschitta. I wouldn't. Maybe Dr. McInerney. Because 
your follow-up questions I wouldn't be able to answer.
    Dr. McInerney. I have not seen the Medical Examiner's 
report.
    Mr. Zeldin. One of the things I would really love to be 
able to improve following this hearing, and we have had some 
dialogue on this recently in the past few months, is improving 
communication between the Northport VA and the Long Island 
congressional delegation, especially on topics that we are 
going to be fielding questions for. When we get asked why the 
operating rooms were closed for three months, and we didn't 
even know the operating rooms were closed at all, and as it 
relates to the most recent suicide that took place here, again 
fielding questions that we didn't have the answer to, and now 
we are finding out that there was this death that took place 
and we have to ask about it now--
    Mr. Moschitta. Could I just comment on that?
    Mr. Zeldin. Go ahead.
    Mr. Moschitta. Because I think that is a very good point. 
What I will do is, I will have our PR staff host a summit for 
all congressional delegation's aides, because I think we 
communicate pretty well with the delegation. However, I think 
what we really have to fine-tune is every item you really 
expect to be communicated about. The issue of the OR, I 
publicly apologize for that. I own that. I did not inform you. 
We were laser focused on making sure the patients got care and 
that we got the ORs up and running again. So I do take 
ownership for that. But some of these other things, we normally 
wouldn't.
    So I think we have a summit here and we just ensure that we 
are on the same page.
    Mr. Zeldin. That is great. And beyond that, just moving 
forward, continuous communication when we should be updated on 
something that we should know. In order for us to be able to 
best fight for Northport VA and the veterans, we need to know 
what all the issues are.
    Can you speak about what you know of your most pressing air 
quality issues here at Northport VA?
    Mr. Moschitta. Okay. Once again, I am not an air quality 
expert, but let's talk about the OR, for example. At no time, 
even when we had a discharge, was the air quality below 
standard. What you had was a discharge of rust. Rust was 
heavier than--how do I describe it? It is not airborne, okay? 
When we measure the air quality, we have an outside company 
come in, they set up a machine, it sucks in the air, and then 
it analyzes it. So our air quality in all these areas has never 
fallen below standard.
    This was a case of granules that came out that fell more or 
less straight down, and our concern was, as small of a chance 
as it was, it might go onto a person's shoulder, it might go 
onto a nurse's arm or something, and fall into a wound.
    We took the highest level of care to make sure our patients 
were safe. Immediately, all the patients were looked at, and 
they have all been communicated with. They have been 
rescheduled. It is interesting that it took three months to 
find out, and in a sense that was because there weren't patient 
complaints because they got handled right away, with the 
majority of patients wanting to wait for the ORs to reopen 
because they trust us here.
    So that is why I think I messed up in not informing you 
because we were more focused on the patients and getting them 
taken care of.
    Mr. Zeldin. And I appreciate you saying that. We did get 
some feedback after the news came out which we have been 
working through, and for the sake of time I am going to have to 
yield back and wait for the next round, but I am going to want 
to pick up on this air quality issue again.
    Mr. Moschitta. Okay.
    The Chairman. Miss Rice?
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Moschitta, what I would like to talk about is an issue 
that is affecting a lot of VAs across the country, and that is 
infrastructure. We have facilities that were built 100 years 
ago. So what I would like to do is, because what I think this 
is going to require is a major commitment on the part of the VA 
and the Federal Government, obviously Congress, where the 
funding comes from--and it is not just--we have infrastructure 
problems. Everyone here on Long Island knows the infrastructure 
issues that we have.
    So if you could just talk about what the issues, specific 
infrastructure needs are here, and how it is affecting your 
ability to effectively serve the veteran population.
    Mr. Moschitta. Well, the campus is 88 years old. We have 57 
buildings. Most of them are 88 years old, so you would expect 
there are going to be a lot of infrastructure issues. We had a 
facility assessment three years ago--I think we have another 
one coming up in October--which at that point in time 
identified $290 million worth of renovations required.
    Now, when you roll that up nationally, and this number, I 
am not sure how accurate it is, I think they are looking at 
close to $17 billion is needed nationally in order to bring all 
of the VAs up to snuff. This is a huge task for the 
congressional people. I really applaud you for trying to work 
on that. But unless the pot of money in central office is 
adequate enough, what we have to do here is we prioritize, we 
submit our request, and that competes nationally against other 
types of submissions across the country.
    We have a very aggressive, I think, maintenance program. 
Can it improve? Absolutely. But when you consider some of these 
areas we are talking about, 15 and 20 years beyond their life 
expectancy and we still keep them up and running, there is some 
effectiveness with our maintenance program.
    We have made some changes locally to try to get out ahead 
of the curve. For example, when our associate director retired, 
I recognized that this is really our number-one priority here. 
We recruited, and I was looking to get someone who really had 
that kind of expertise to oversee and personally take charge of 
these issues, and we recruited a Navy veteran--excuse me--an 
Air Force veteran who is a retired colonel, but his primary 
responsibility was facility operations. So he is working very 
closely now to ensure that our project management is better and 
our oversight is better.
    Two things that he has already brought forward which I 
think are fairly innovative. One is his self-help philosophy 
where he identifies staff that can do some of these major jobs. 
So when we talk about roofs, some of the roofs here can cost 
$600,000 to $800,000 to replace. We are now on our third roof 
replacement done with internal staff, okay? And basically what 
you are doing, is you are paying for the labor, which is a 
staff person who we are paying anyway, and supplies. So we are 
seeing significant savings in that, which will also justify 
adding additional staff, probably, to that department.
    The other thing is the innovation in this training program. 
He used to run this program. It is where you partner with the 
military reservists, and these are individuals who get deployed 
into areas where they do construction. But part of their 
readiness training is they spend two-week intervals--they need 
to practice this. So we are going to try to get an MOU--we are 
very close to it--where we would have reservists come on-site 
with units. We provide the materials, and they will be able to 
do our sidewalks, do our stoops, do projects. This here is very 
innovative for us, and although there might not be enough money 
nationally, we are trying to move ahead aggressively to self-
help.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Zeldin. Mr. Israel?
    Mr. Israel. Thank you, Mr. Chairman.
    Mr. Moschitta, I want to return to the issue of the 
operating room closures. You said that you own that, you take 
responsibility for it, for the lack of communication with the 
congressional delegation. But in my view, more important than 
communication with the congressional delegation is did you 
solve the problem.
    In May Mr. Zeldin, Miss Rice, Mr. King and I sent a letter 
to Secretary McDonald asking him for a full report on the 
operating room closures and the failed HVAC system. On June 
24th we received a response from David Shulkin, Under Secretary 
of Health for the VA, who stated, ``Northport's next step is 
fully resolving its HVAC systems and has engaged an outside 
consultant to complete a full evaluation of the system.''
    What steps have been taken to fully evaluate the system? If 
there was a full evaluation, what were the results? And what is 
your plan moving forward to ensure that we never again have to 
learn that operating rooms have been closed because of a faulty 
HVAC system?
    Mr. Moschitta. Okay. The operating rooms were closed, I 
think it was on February 17th, when the particles came out of 
the vent. They were analyzed. They were shown to be all three 
forms of rust which composed the inside of the ductwork. I know 
there are some reports that say it was asbestos, but there is 
no asbestos component in this. So this was purely rust, not 
airborne, so that it wasn't an air quality issue.
    We then cleaned the ducts twice, and then we reopened three 
of the five ORs, because three of the five never had any 
particulate matter come out, only to find a month later that 
those three had a discharge. That is when we re-closed them 
all. So we weren't continuously closed from February to June.
    Very innovatively, they came up with a resolution to the 
media problem with these fan-assisted HEPA filters. It is very 
complicated because what you do is you mount a HEPA filter, 
which is like a very tight screen, so the particles can't fall 
out. Each vent had to have one mounted, fan assisted, because 
there is air flow, which means you have to have so many 
exchanges of air in the OR. So you couldn't just put a filter 
up there; it would block the air flow. So you needed the fan 
assisted so it can draw it out at the same rate, which meant 
you had to bring electricity to every vent. It was a huge 
undertaking.
    That was installed, and since then we have had no issues. 
We check the screens regularly, and we have had very, very 
minimal discharge.
    When we talk about the original issue, the discharge was 
minor. It wasn't like a puff of black smoke. I know people have 
all kinds of visions of what this is. It is basically rust 
particles that fell straight down. You could see them on the 
floor right underneath the unit.
    We did bring in a consultant. He felt that the air handler 
and system could get some refurbishment right now which would 
allow us to continue the OR for five, six, seven years.
    Mr. Israel. And that is underway, that refurbishment?
    Mr. Moschitta. We are waiting for the contract to be 
awarded, which is momentarily. We are hoping it can be awarded 
very quickly, and it is not a very long duration of a contract. 
So that will be fixed.
    In the meantime, we are working up the plans to make sure 
it is in our SCIP program for an assessment on whether we are 
going to do a total OR replacement or partial. We would like, 
obviously, a total replacement. But until it is assessed--
    Mr. Israel. When will that determination be made? Final 
question. As to whether you need to--
    Mr. Moschitta. Well, it goes through the final process. I 
can't tell you when the final determination is. I know we have 
now some breathing room given that we will refurbish. So I 
can't really tell you when that will happen. I know it has 
gotten a lot of attention in central office, even from the 
Secretary himself. He is committed to getting us stabilized and 
rolling. So we are all working on this.
    Mr. Israel. Well, I hope that my colleagues will join in 
the letter to Secretary McDonald asking him when the final 
determination will be made.
    The Chairman. Thank you, Mr. Israel.
    I want to talk a little bit about the maintenance and 
funding that goes on here. I know there were three projects 
that were funded, but unfortunately there was a cascading 
effect of something that our Committee knows all too well, the 
Aurora billion-dollar budget overrun. There was $115 million of 
facility maintenance funds that were moved in order to try to 
fill that gap. Obviously, it didn't fill the gap because we had 
to take almost a billion dollars out of the Choice fund. There 
were two projects here, elevator modernization and a generator 
project, I think, that were affected by that. Is that true, Mr. 
Moschitta? Do you recall?
    Mr. Moschitta. Well, we have had projects that have 
stalled. Not all our projects run smoothly. So if you want to 
talk about a specific project, I would have to take it for the 
record and get back to you on that specific project. But we do 
have issues at times getting the projects complete.
    The Chairman. And what usually are the reasons that they 
stall? Is it always funding, or is it not being able to get a 
competitive bid?
    Mr. Moschitta. In some cases--well, I am not a contracting 
officer, so I don't really want to speculate. I think a lot of 
people own why sometimes things don't happen. What I am pleased 
to say is that with our integration, there is new leadership in 
contracting, and we have found this individual to be a breath 
of fresh air.
    There is a big education component. So when we write our 
Statement of Work, we are starting to really communicate with 
contracting to make sure our Statement of Work is correct. So I 
think under this new leadership you are going to see a lot more 
positive results. Long Island is a very difficult place in 
respect to contracts. We don't in some cases get a lot of bids, 
and that is very difficult. We will project that a contract 
will cost XYZ, and then you will get one bid and it is three 
times the amount. So it is a tough market.
    But I think--I feel confident that our project oversight, 
our maintenance, the facilities, with the new switch in 
leadership, we are committed to process improvement here.
    The Chairman. Can you talk a little bit--I spoke in my 
opening statement about the cooling tower situation as it 
related to the ultrasound rooms. Can you tell me what is going 
on there and why the need for the portable cooling system or 
cooling towers?
    Mr. Moschitta. Yes. The cooling tower itself, there was no 
real issues with the cooling tower. A pipe, a high-pressure 
pipe burst. As a result of the water, it damaged beyond repair 
the rest of the cooling tower. The cooling tower is what cools 
Building 200. It cools two of the nursing home units and some 
other areas.
    Now, we were fortunate. It was in March, so it wasn't--if 
it was in August, it might have been a little more difficult. 
We immediately went out and through emergency procurement got 
two portable chillers here, and that then takes the place of 
our cooling tower, and that fluctuates. So during certain 
months of the year we use two. When we get into the heavy air 
conditioning season, we rent two more, for four. So when you 
hear numbers like $110,000, that is for the four per month. 
However, you have to offset that with not running the cooling 
tower. There are expenses with running the cooling tower and 
the maintenance and things of that nature. So we figure on an 
average that $110,000 offset by the savings is roughly around a 
$55,000, $60,000-per-month bill. It is not $110,000, because we 
gave you the cost that we are paying, but we didn't give you 
the cost of offset.
    The Chairman. And the pipe you said just burst?
    Mr. Moschitta. Yes.
    The Chairman. And the reason for the bursting of the pipe?
    Mr. Moschitta. Well, it is like at home, my pipe burst and 
it had the flood--
    The Chairman. Well, was it--
    Mr. Moschitta [continued]. from the exterior, my 
understanding is you couldn't tell there was an issue. But 
these are high-pressure pipes, and it burst. Once again--
    The Chairman. There wasn't a problem with improper use of 
funds within the system?
    Mr. Moschitta. No. I can ask our engineers, but--
    The Chairman. I am going to send you a follow-up question 
about that as well.
    Mr. Moschitta. Yes.
    The Chairman. Because again, pipes do burst, I understand 
that, but pipes also burst for maintenance issues, and I would 
like to get a little more information.
    Mr. Zeldin?
    Mr. Zeldin. I wanted to get back to air quality. But before 
I do, with regards to the veteran who died on a Friday, found 
on a Monday, was there an FBI investigation for that?
    Mr. Moschitta. Yes. We called--similar to any death like 
that, the police have their protocol. They called the FBI, they 
called the IG.
    Mr. Zeldin. Okay. Are you sure the FBI completed an 
investigation in that case? Have you seen a report?
    Mr. Moschitta. I have not seen the report. I am only going 
through our police department.
    Mr. Zeldin. Suffolk County Police, were they involved in 
that?
    Mr. Moschitta. I would have to get back to you because I 
don't know exactly if Suffolk County was here.
    Mr. Zeldin. Regarding the other gentleman who died here on 
campus who we spoke about as well--there were three that have 
been mentioned here--was there an FBI investigation report on 
that?
    Mr. Moschitta. Two died on campus. One was not on campus. 
One was a non-vet.
    Mr. Zeldin. I am sorry. So the non-vet, this was the 
individual who worked here and became a patient here, and then 
he died off campus.
    Mr. Moschitta. Yes. What occurred was there was a 
humanitarian mission, and then he was discharged, and I think 
it was four to five weeks later.
    Mr. Zeldin. Did you say that he didn't commit suicide? I 
don't want to put anything--
    Mr. Moschitta. No, I never said anything on that. Once 
again, it is in the private sector. I think--
    Mr. Zeldin. So there wouldn't be an FBI investigation?
    Mr. Moschitta. No, no, no.
    Mr. Zeldin. Because that one took place off campus?
    Mr. Moschitta. Correct.
    Mr. Zeldin. Okay. Getting back to air quality, I asked what 
your most pressing concerns were, and you were speaking 
specifically about the operating rooms. What about the rest of 
the campus? What kind of air quality concerns do you have right 
now?
    Mr. Moschitta. Once again, the quality of air, to the best 
of my knowledge, has never come back other than meets all the 
standards.
    Mr. Zeldin. Is there--
    Mr. Moschitta. And that is by an outside company. We don't 
do that testing ourselves. We contract somebody to come in. 
They test the air, they give you all of the--whatever is in the 
air, and they let you know that it is safe.
    Mr. Zeldin. So you are not aware of any air quality 
concerns outside of the operating rooms?
    Mr. Moschitta. Correct. Once again, in the operating rooms, 
I don't want to belabor this.
    Mr. Zeldin. I understand.
    Mr. Moschitta. It is not air quality in the operating 
rooms. It was particulate matter that came out.
    Mr. Zeldin. I know. In my last round of questions I asked 
what your most pressing air quality concerns were, and you were 
speaking about the issues that forced the OR to be closed. I 
can't help myself that, while I am sitting here--and I am not 
an expert. I mean, I am looking literally at the ceilings right 
here, and is that bad duct work that has all the black material 
around--
    [Applause.]
    Mr. Zeldin. I am not an expert. I just want to understand 
why that--
    Mr. Moschitta. I am not an expert on that, but clearly we 
have to clean them. I mean, you know, it is a matter of dusting 
them. This doesn't necessarily mean--it is just like at home. 
When you go into your own house, if you have your air 
conditioning running, there is a certain residual of dust that 
accumulates.
    Mr. Zeldin. Is it true that there was a person who was in 
surgery when the power went out during surgery?
    Mr. Moschitta. I don't know.
    Mr. Zeldin. You are not aware of anyone having been in 
surgery and there was at least a power surge that took place?
    Mr. Moschitta. No, we have had a power surge. I am just not 
aware of it. I can tell you I would have been aware if there 
was an adverse impact to that patient. No adverse impact 
occurred.
    Mr. Zeldin. Okay, but you are not aware of any power issues 
during surgeries?
    Mr. Moschitta. We had a power--
    Mr. Zeldin. What is the power surge that you are aware of?
    Mr. Moschitta. The one I am aware of is PSE&G at their 
substation had a power surge, which meant that our electricity 
got impacted. Our back-up generator, that is where it failed, 
our back-up generator, okay? We notified PSE&G. We were out of 
power for about 45 minutes because PSE&G had to clear the line 
because they had people working on it, and what we do is, the 
switch is thrown, so we go to another feed. But you can't do 
that while someone is working on the line, obviously.
    Mr. Zeldin. Okay. During those 45 minutes, is it true that 
someone was on a table in an operating room?
    Mr. Moschitta. I am not sure. I can find that out for you.
    Mr. Zeldin. It is possible, though, that someone was on a 
table in the operating room during--
    Mr. Moschitta. Well, anything is possible. But I am saying 
I know for a fact I would have remembered if there was an 
adverse impact to a patient.
    Mr. Zeldin. The reason I ask is just because one of the 
people who came forward said that there was someone on a table 
in an operating room when there was a power surge that took 
place. The back-up generators failed. The power was out for 
about 44 minutes. So it is very consistent with what you said.
    Mr. Moschitta. Right.
    Mr. Zeldin. The only thing is that one part of the 
complaint that was shared with our office specifically as it 
relates to someone actually being on the table in surgery at 
that time.
    Mr. Moschitta. Yes. But I think, from my perspective, I am 
more patient focused. So knowing that no patient had any 
adverse impact is more important to me at this point in time. 
That is why I can say safely there was no negative impact to 
the patient. Whether a patient was on a table, I don't 
recollect that.
    Mr. Zeldin. I am out of time, but my understanding is that 
the back-up generator and the PSE&G issue were two separate 
issues.
    Mr. Moschitta. Yes. As a result of PSE&G having an issue 
with their substation, our back-up generator didn't kick in, 
and within the day we fixed it.
    Mr. Zeldin. Okay. Thank you.
    The Chairman. Mr. Takano, I apologize, I skipped you.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Moschitta, can you tell me, during that time when the 
ORs were shut down and many of the customers here were 
encouraged to go into the community, and you said a number of 
patients elected to wait until your OR was reopened, can you 
roughly give me an idea of how many veterans chose to wait 
versus those that went into the community?
    Mr. Moschitta. Do you have the exact amount?
    Dr. McInerney. Well, there were 154 patients who were 
postponed due to the OR being closed. At this point in time 
there are still 22 pending, but that is because of patient 
choice. They chose to wait until after the summer for their 
surgery.
    Mr. Takano. They had procedures that weren't so time 
sensitive?
    Dr. McInerney. Exactly.
    Mr. Takano. And they preferred to wait to get their care 
from the VA?
    Mr. Moschitta. Yes.
    Dr. McInerney. Yes. And what we did is every one of them 
conferred with their physician to make sure that the decision 
was a safe decision. At the network level, we have actually 
looked back with the facility at all the cases that were 
postponed to make sure that there was no adverse events for any 
of those patients who were postponed.
    Mr. Takano. And the Choice Act did provide them with that 
opportunity to make a choice, actually. Right?
    Dr. McInerney. Yes.
    Mr. Takano. So those that needed more pressing procedures, 
whose procedures were more pressing, they were able to go to 
the private providers and get the care.
    Dr. McInerney. Yes.
    Mr. Takano. And you can assure us that everybody who needed 
immediate care was taken care of, and everybody was informed in 
a timely manner of the options before them?
    Dr. McInerney. Yes. To the best of our knowledge, yes.
    Mr. Moschitta. And there was full disclosure to the 
patients.
    Mr. Takano. So VISN 2 and VISN 3 were integrated together, 
and it is now known as VISN 2. Is that correct?
    Dr. McInerney. Yes.
    Mr. Takano. How was this integration of the VISNs managed? 
You alluded to the difficulty with planning and construction 
functions of the previous arrangement, and I am getting some 
sense that the planning of facilities and construction 
maintenance is a challenge. Having been the trustee of a major 
community college district in California, maintenance 
facilities planning construction requires a certain expertise 
which the CEO of the organization doesn't have, and they really 
need somebody good in that place. Otherwise, things begin to 
deteriorate, maintenance isn't done, ORs in this case have the 
problems they have.
    Can you tell me about whether or not this new integration--
you alluded that it was better. What was it like before? I am 
just trying to get a sense of the stability of the leadership, 
the continuity of the leadership in this area, the management.
    Dr. McInerney. So, prior to October 2015, there was a VISN 
2 and a VISN 3. VISN 2 was upstate New York State, and VISN 3 
was downstate New York State, as well as New Jersey, and both 
of the VISNs were fairly small, and a decision was made as part 
of the restructuring out of Secretary McDonald's office to 
develop the districts, the VA experienced districts, to merge 
the two VISNs. So that was accomplished October 15th. Because 
of that, then there was realignment of our relationship with 
contracting. There was a contracting group in 2, and there was 
a contracting group in 3, and now there is just one contracting 
group.
    So there have been some efficiencies. There has been some 
new partnerships, some new alignment, some new learning, 
different ways to do things. It has been very interesting.
    Mr. Moschitta. The part that I was referring to is that 
with this new leadership, the approach is much different. It is 
much more collaborative. I think it is really stripping it down 
to the bare essentials and building it up again by training and 
getting people to talk together, and that is why I feel very 
confident that both in contracting and in projects and stuff, 
we are making headway.
    Mr. Takano. Part of the cost overrun at Aurora was just the 
astounding number of change orders, which indicated to me very 
poor planning and lack of collaboration with the people that 
use the facilities, all these changes. When cost overruns 
happen, I am looking to the change order issues.
    Mr. Moschitta. And you are right, and that is why I think 
the collaboration and knowledge is going to help us quite a 
bit; and also, as I indicated, my associate director, that is 
his background. So these weekly calls, I have my senior leader 
on those calls. So this is not being delegated to a lower 
level. At the very top, he is there facilitating to make sure 
that we are working together.
    Mr. Takano. All right. Well, thank you.
    The Chairman. Miss Rice?
    Miss Rice. Dr. Bellehsen, what I would like you to do, if 
you could, can you speak specifically about the benefits for 
family members who receive health care or access support 
services at the Northwell side of the facility, while the 
veteran receives care on the Northport side?
    Dr. Bellehsen. Sure. And I would note that we also have a 
pending Rand Corporation evaluation that has been conducted of 
our center which is forthcoming in the next month or so. So 
while I can't speak specifically to the results in that 
document until it is released, a lot of our findings hopefully 
are also going to be backed up with that evaluation.
    Specifically, we have been able to assist families in 
various means. Some family members, as they struggle with the 
challenges of reintegration, can suffer themselves with mental 
health difficulties such as depression, secondary 
traumatization. They can also experience caregiver burden. And 
all of those areas have been areas of focus for our providers.
    Additionally, we are able to give the family members 
education and even just a place to come together to find 
support and validation for their experiences, which they have 
explained to us has been just monumental for them. One family 
in particular, I recall when they were doing focus groups 
around our patients, had shared that in her experience, when 
she was going out into the general community divorced from the 
VA providers, and just finding ad hoc providers out in the 
community, she felt no sense of understanding of her challenges 
and found providers were encouraging her, for example, to 
dissolve the family and divorce; whereas by coming to centers 
like ours, she felt that she had a place that understood her 
challenges and was able to help sustain the family unit.
    Miss Rice. Have you had any conversations with any higher-
ups within the VA about your success? Are you waiting for this 
report? Are you trying to serve as a best practice for this 
kind of public-private partnership?
    Dr. Bellehsen. We did have one general conversation a while 
back, nothing definitive in terms of plans towards replication, 
but our hope is that this report coming out will document the 
best practices, the processes that need to be put in place, and 
demonstrate the viability of doing these kinds of partnerships 
that will hopefully support interest by others in other parts 
of the country to replicate.
    Miss Rice. Thank you.
    Dr. Bellehsen. Thank you.
    The Chairman. Mr. Israel?
    Mr. Israel. Thank you, Mr. Chairman.
    Mr. Moschitta, I have an obligation to ask about some 
language in a New York Times story. I would like to read it to 
you and then get your response for the record.
    In the New York Times it says, ``Hospital officials, 
including the facility's director, have been called to testify 
at this hearing. According to a person familiar with the 
investigation who was not authorized to speak and requested 
anonymity, they will also be asked about allegations of 
widespread fraud, including the collection of thousands of 
dollars in fees to care for veterans who were never actually 
treated. According to internal emails and current and former 
employees familiar with the alleged scheme, who spoke on the 
condition of anonymity because they feared retaliation, nurses 
were directed to make cold calls to veterans and then code 
those calls to look as though they had been solicited by the 
patient, not the practitioner, in order to enhance revenue. One 
former hospital employee likened the practice to your private 
physician calling you out of the blue to check on you, then 
billing your insurance company for the call. The former 
employee, who asked to speak anonymously to avoid reprisal, 
said the practice was a means of padding the numbers.''
    And then finally, ``The goal of the calls, according to the 
internal emails,'' says the New York Times, ``was to contact 
around 2,000 veterans and thus raise enough money by the end of 
the current fiscal year to patch a large hole in the hospital's 
growing deficit of more than $11 million.''
    How do you respond to that, Mr. Moschitta?
    Mr. Moschitta. I think that was some of the questioning 
from Congressman Zeldin. It was 4,000 patients we were reaching 
out. Once again, this is a veteran engagement project. We are 
trying to get those veterans who are not utilizing our system 
into the system. This does not close our budget. We don't get 
this money. And as I said previously, these encounters are not 
billable, so there is no money generated on this.
    We are a VISN, and we work very close with our VISN 
leadership. So when we talk about an $11 or $12 million 
deficit, as a VISN we work that out. So right now we will be 
able to close this year, thanks to the help of our VISN 
director and our leadership. But clearly, there is no fraud 
here. And I mentioned earlier that we welcome someone coming in 
and taking a look.
    Mr. Israel. Well, I did want to follow-up on Mr. Zeldin's 
inquiry. So the former hospital employee who was the source of 
this would you characterize as just uninformed, didn't 
understand that this was part of your patient engagement 
process?
    Mr. Moschitta. Well, if it is a former employee, they are 
former for different reasons. We hold people accountable. I 
can't speculate on who this is, but if I was to speculate, 
there are a certain number of employees both on the staff 
currently and off the staff that have a motive why they 
perpetuate these kinds of rumors, lies, and falsehoods, even 
though they don't realize necessarily it is to the detriment of 
our patients, because when you put stuff like that in the 
paper, our patients feel they are coming to a place they can't 
feel safe in.
    This is why I am very happy you are here, and I keep saying 
it, because we have to clear the air. I don't want any employee 
at this medical center, or any volunteer, or any patient to 
think anything less than we are the best there is for them, 
okay? We will try to always improve. That is our goal. But when 
you spread this kind of stuff that we are not caring for people 
in the ED, it is a terrible thing and it hurts patient care.
    Mr. Israel. So there were no internal emails that suggest 
that employees or nurses should contact veterans and raise 
money to cover a budget gap?
    Mr. Moschitta. There is no intent to raise money like a 
raffle or something like that--
    Mr. Israel. That wasn't my question. So you are saying 
there are no internal emails that suggest otherwise?
    Mr. Moschitta. No, not at all. Now, once again, we did 
mention that if the person belongs to a panel, then that panel, 
that doctor and nurse are responsible for reengaging their 
patient. So that is how they are involved. They are doing what 
they should be doing as clinicians.
    Mr. Israel. Okay. Thank you, Mr. Chairman.
    The Chairman. Mr. Moschitta, can we talk a little bit about 
the non-veteran who was an employee? We won't talk specifics. 
As I understand it, he was a full-time employee, and he 
voluntarily committed himself into your facility?
    It is important, because my next question is going to be I 
understand that he did write a letter asking to be discharged 
from the facility, a 72-hour letter, and my question is, were 
the proper procedures followed at that point? Because as I 
understand it, in New York--and I don't know if the New York 
laws apply as it relates to the 72-hour letter, whether you 
have to go to the judicial--
    Voice. But--
    The Chairman [continued]. I apologize, but I am asking the 
question of the gentleman here.
    Mr. Moschitta. That part of the question--and I can turn it 
over to Dr. Thomesen, the Chief of Psychiatry. I can say yes, 
we followed all the regulations and all that was done 
appropriately.
    The Chairman. Doctor, can you talk about it?
    Dr. Thomesen. Without speaking, Chairman, to this 
particular case, but I can tell you, in general, we do follow 
New York State law. We have a mental hygiene legal services 
attorney--
    The Chairman. So if somebody submits a letter to you asking 
to be released--
    Dr. Thomesen. Yes.
    The Chairman [continued].--it is my understanding that you 
have to do one of two things: either you release him, or you 
have to get a court order to keep them in. And that was done, 
either one or the other was done.
    Dr. Thomesen. I can't speak to this particular case, but 
our processes follow New York State law. We have a New York 
State mental hygiene legal services attorney--
    The Chairman. Well, you are answering the question, then.
    Dr. Thomesen. Yes.
    The Chairman. You followed the law to the letter. That is 
all I need to know.
    Dr. Thomesen. Yes, sir.
    The Chairman. Okay. Thank you.
    Go ahead. Take your time, Mr. Takano.
    Mr. Takano. Dr. Bellehsen, I would like to shine a little 
more light on the program. So your responsibility is for the 
families, and you work very much in tandem with the VA.
    Dr. Bellehsen. Yes.
    Mr. Takano. And my understanding, is you get the permission 
of the veteran and the permission of the family so that the 
therapy or the mental health services can be done very much 
holistically. They are not siloed. Is that correct?
    Dr. Bellehsen. Yes. The beauty of our partnership is that 
we can be flexible. So there are instances where perhaps a 
family member will come to us independently of the veteran, who 
may or may not be engaged in treatment. But on the other hand, 
there will be instances where we can see a family that has come 
to us through the veteran as well. And when a veteran and their 
family both agree to us being able to coordinate the treatment, 
we can do that.
    Mr. Takano. Has this been a challenge in mental health 
services pertaining to veterans across our country because of 
our private--Miss Rice, I think so eloquently pointed out what 
is at stake, and it is for a good purpose. We want to protect 
people's privacy. But in terms of really doing mental health 
care that makes a difference, that will prevent suicides, that 
will lead to healing, it also can't be siloed. So where we can 
break down, get past the privacy issues by getting consent by 
all the parties, can you tell me how beneficial this is?
    Dr. Bellehsen. Yes. I believe it is extremely beneficial in 
many respects. In general, I find that to be able to coordinate 
and communicate care--and I am a clinician first, and I often 
find it very challenging whenever I need to communicate and 
coordinate care with providers from other organizations. So 
having a platform where we can regularly meet, both at 
scheduled and unscheduled times, to be able to communicate 
important information has been immensely helpful. At times, it 
has enabled us to work with certain family units even if one of 
the members has been somewhat disengaged from treatment.
    So a family member can report this is still happening for 
the veteran, and we can then promote engagement of that 
veteran.
    Mr. Takano. Dr. Thomesen--and, Mr. Moschitta, please feel 
free to jump in--from your point of view in terms of serving 
the veteran and knowing other veteran administrators in the VA, 
this sort of partnership and being able to engage the family, 
can you comment on how important this is?
    Mr. Moschitta. Yes. I think this is a blessing for 
Northport and Long Island veterans. I have to commend Dr. 
Thomesen for taking a leadership role. When we first discussed 
this, this was a very difficult process to go down because it 
was uncharted. It took probably close to a year to figure out 
how to even have this linkage come together. But I get a fair 
number of patients that come forward, and I think there was 
even one on CNN that talked about how this saved their lives.
    We are not typically allowed to treat the children or the 
spouses, so having the ability to collaborate as two clinicians 
on the total health care of a family unit is extraordinary. So 
we want to thank Northwell. It is really an outstanding thing.
    Mr. Takano. I am interested in this Rand study. I am 
interested in hearing back from Northwell, your company.
    Dr. Bellehsen. Yes.
    Mr. Takano. Your thoughts on how we can make this 
sustainable financially, and whether it involves expanding the 
scope of what we do at the VA or working with the private 
insurers. Do you have thoughts on this?
    Dr. Bellehsen. I do have some thoughts. I think that is, 
again, why we began the process of billing insurance. But I do 
know that even with current billing of insurance, the cost of 
sustaining centers like these is quite expensive. So I do 
believe exactly that point, working potentially with insurers 
and with the Federal Government perhaps to get additional 
augmenting payments for these families in particular, I believe 
would be extremely beneficial.
    Mr. Takano. Mr. Chairman, I hope that the Health 
Subcommittee might look into this partnership. It is a public-
private partnership, and I know that both sides of the aisle 
are very much interested in making sure the VA retains its 
traditional coordinating role, the role as coordinator of care. 
But, of course, we are talking about not a competitive 
relationship, but one of cooperation, where there is a 
partnership not competitive in nature but cooperative in 
nature.
    Dr. Bellehsen. Exactly, one in which the expertise of both 
institutions can be leveraged so that, as Director Moschitta 
was saying, we can work with the spouses, but also the 
children, which is not an area that is historically under the 
scope of VA care, and the VA can continue to work with the 
veteran.
    Mr. Takano. Thank you. Thank you very much.
    The Chairman. Before I recognize Mr. Zeldin, I want to ask 
a question, and this is pretty dangerous. But how many of you 
are veterans in this room who have used the services here at 
this facility? Raise your hands.
    [Applause.]
    The Chairman. All right. So that is the employees who are 
applauding for you, and we applaud you as well.
    Now, how many of you are satisfied with your care?
    Hands down.
    How many of you are not satisfied with your care?
    That is what I needed to know.
    Mr. Zeldin?
    Thank you very much.
    Mr. Moschitta. Can I make a comment, please?
    The Chairman. You can't make a comment. You already have 
made--go ahead.
    Mr. Moschitta. Those who raised their hands who are not 
satisfied, I would appreciate if my staff could take their name 
and we could find out why, because we will try to rectify that. 
Thank you.
    [Applause.]
    The Chairman. Good. Thank you. And I will say this, based 
on the information that was provided, it is much more lopsided 
to the pro side than the con side. I think if folks truly want 
to find a way to solve some of the issues that may affect your 
personal health care, I think it is very important that you do 
engage, and let's see if we can get it resolved. If not, I am 
going to tell you who you call next. You call your Member of 
Congress who has people on their staff that deal with veteran 
issues every single day. Don't wait until you are so frustrated 
that you want to leave the system.
    Mr. Zeldin?
    Voice. Mr. Chairman, respectfully--
    The Chairman. Sir, if you don't mind, I apologize. Mr. 
Zeldin has time to ask--I apologize, but we just can't take 
comments from everybody today in the audience. I appreciate it 
very much.
    Voice. I request permission to speak.
    The Chairman. I will be glad to speak to you afterwards.
    Mr. Zeldin. Mr. Chairman, I would echo that, too. The 
comments that we received, they are more on the pro side than 
the con side. It has always been that historically as far as my 
interactions.
    Flooding. Can you tell us what kind of flooding issues you 
have here at Northport VA? Because one of the other areas where 
we received a lot of feedback in recent months is that you guys 
have some flooding issues.
    Mr. Moschitta. Well, during the heavy, heavy rainstorms, we 
do have walkways that connect buildings. Some of those have 
water seepage. We have roadways that are not perfectly level 
anymore, so we have flooding and puddles of that nature. We 
have leaks in some of our roofs. Once again, I am happy to say 
my associate director has really initiated that self-help, so 
we are starting to replace the roofs ourselves at significant 
savings to the taxpayer.
    So, yes, there are water seepage issues.
    Mr. Zeldin. Is there more than, say, 5 or 10 years ago?
    Mr. Moschitta. I would assume. The building hasn't gotten 
younger. It keeps getting older, so we are going to have 
issues. And that is part of our plan, to rectify this. Some of 
these are not easily rectified.
    Mr. Zeldin. And I really appreciate that point. There are 
1,258 capital requests Department-wide, 1,258. Every year, they 
reprioritize this list. There are 1,258. How many of those 
requests are Northport VA's?
    Mr. Moschitta. If you are referring to the SCIP plan, I 
think we have 73 items on there, but they compete against 
everything else.
    Mr. Zeldin. I know. This is what I want to talk about. What 
is your highest ranked request on that list?
    Mr. Moschitta. At this point, I couldn't tell you the 
number one--
    Mr. Zeldin. Is it possible that your top ranked request is 
542 out of 1,258?
    Mr. Moschitta. It could be, because there is also criteria 
that are established. So, for example, I know that nationally 
right now they are looking for projects that will improve 
access and things of that nature.
    Mr. Zeldin. And it is possible that your lowest ranked is 
1,257 out of 1,258?
    Mr. Moschitta. Could be.
    Mr. Zeldin. I don't think that Northport is alone with the 
answer to that last question you gave me, that system-wide we 
are seeing the system falling into a state of disrepair. The 
Veterans' Affairs Committee has held hearings on, for example, 
the project in Aurora that is $1 billion over budget, and when 
they were in front of our Committee, the Department said they 
were operating off of what they referred to as an artificial 
budget. One of my colleagues on the other side of the aisle 
asked when she was going to get a timeline of when there was 
going to be an actual budget, and the Department wasn't able to 
answer that. So the follow-up question is, well, can you give 
us an idea of when you will have a timeline? She was asking if 
there was a timeline to have a timeline to have a real budget.
    What happens when your capital--this is just one project; 
there are others as well. What happens is--and this is not so 
much specific to Northport VA, but it directly impacts every 
veteran in this room, and it impacts this entire facility here. 
If your highest request is 542 out of 1,258, you are never 
going to get any of your requests satisfied. So next year, if 
they do another rank order, and you have dozens of requests, 
and next year your highest ranked request is 512, and then the 
following year after that it is 515, the way that the money is 
currently being spent--and look no further than Aurora--is 
resulting in none of your requests, none of your requests, and 
that is something that greatly concerns me.
    I don't want to speak for my colleagues here from the rest 
of the congressional delegation, but knowing where their hearts 
are in our conversations about the Northport VA and delivering 
high-quality care for our veterans, there is something 
seriously wrong with the fact that none of the requests here 
are ever getting satisfied because of the way money is being 
mismanaged at the Departmental level.
    [Applause.]
    The Chairman. Miss Rice?
    Miss Rice. No questions.
    The Chairman. Mr. Israel?
    Mr. Israel. Thank you, Mr. Chairman. This will be my final 
round.
    Mr. Moschitta, I want to go back to the notion of customer 
care and the process for evaluations. The Chairman--I am going 
to extend the danger the Chairman created. The Chairman asked 
for a show of hands of how many people were satisfied with the 
services and the care that they receive, the vast majority of 
the people here. Then he asked how many were dissatisfied; 
hands went up.
    I am going to ask, of the people who have been dissatisfied 
with the care, how many of you have had contact or interaction 
with one of the two customer service personnel that Director 
Moschitta referenced earlier?
    One, two, three, four. Four.
    Mr. Moschitta, is it possible that with a total customer 
base of 32,000 and 57 emergency room visits a day, that you 
should be ramping up the number of personnel that are available 
to have daily contact with your customers to ensure that they 
are satisfied? And if they are dissatisfied, to resolve the 
difficulties that they are encountering?
    Mr. Moschitta. Well, we will take that part of it under 
consideration. That is only one small aspect of our customer 
service program. Many people come to my office, and not just 
me, but my entire front office staff, and those don't get 
recorded.
    Mr. Israel. But you are busy fixing HVAC systems. You are 
busy trying to reopen emergency operating rooms.
    Mr. Moschitta. No, no. What I am trying to say is, it is a 
multi-faceted approach on how we try to accommodate the 
patients. First of all, we do try to have in each department a 
customer service rep. They are trained, and discussed, and 
rolled out by these two individuals. So it is a pyramid. You 
have the two at the top, and then each department has a rep. So 
they are supposed to be referred to see how that service can 
resolve the issue within the service at the lowest level. 
Because remember, when you are a customer service rep, you 
don't know the ins and outs of every single department, so it 
is best to have the department resolve it.
    Then you have the customer service reps, and then many of 
them filter up to the front office, and I have a staff 
assistant, my secretarial staff. They also know, never turn 
away a vet. When there is an issue, you have to try to resolve 
the issue. All those things count as far as how we are trying 
to resolve issues, and they don't really get into a statistical 
database.
    So there are many avenues for this. Whether or not we need 
another official customer service rep, I promise you I will 
look at that.
    Mr. Israel. If you would, I would appreciate that. You have 
to do two things. You have to fix this problem at the top, 
which is in Washington, D.C. with the management of the VA. I 
have had some long-running battles with them, so it has to be 
fixed at the top. But it also has to be improved here on the 
ground, and it seems to me that one of the deficiencies is 
there just aren't enough people communicating with your 
customers to understand where there is a problem, and to solve 
it before it grows into a crisis that requires a congressional 
hearing.
    Thank you, Mr. Chairman.
    [Applause.]
    The Chairman. Mr. Zeldin?
    Mr. Zeldin. Thank you, Mr. Chairman.
    Mr. Moschitta, can you speak further about the inability 
that you are finding to use local labor for these capital 
projects?
    Mr. Moschitta. Well, it is two-fold. One, when we talk 
labor, we are talking about hiring plumbers and carpenters and 
things of that nature. Some of those it is hard to hire even 
for our own staff. Competitively, they make a lot more money on 
the outside and going into Manhattan. So locally to fill slots, 
that is a challenge.
    The second thing is it is a little difficult when contracts 
are put out on the street for bids to get a lot of different 
contractors. It is that competition that really drives the cost 
down. It seems to be the same group. We have some very good 
contractors. We have some marginal ones. So we would love 
somehow to have more competition. I don't know if that is 
within our ability to achieve that.
    Mr. Zeldin. I would love to talk to you more about that 
aspect to see if there is a way to utilize more local labor for 
a lot of needs that exist moving forward.
    Mr. Moschitta. Yes.
    Mr. Zeldin. Can you speak about the golf course and how 
that is owned or leased?
    Mr. Moschitta. Yes. It is leased with the American Legion. 
It is a 20-year lease. I think it is up in 2020, at which time 
then it will be competitively bid. There is not going to be an 
automatic renewal. It has to be competitively bid.
    It is a very nice relationship. They pay for all their 
expenses, so it is no cost to us. They mow, they maintain, they 
make a lot of improvements to the golf course. They recently 
had their parking lot re-done. There is brick work.
    Mr. Zeldin. When you say ``they''--
    Mr. Moschitta. The American Legion.
    Mr. Zeldin. Oh, the American Legion.
    Mr. Moschitta. As long as I have been here. So it is a 20-
year contract, so I guess it is--
    Mr. Zeldin. And do you have any idea, if you want to go 
play 18 holes, how much does it cost?
    Mr. Moschitta. I am not a golfer, but I think it is around 
$14 or so a round. Now, any of our patients that are in-house 
can play for free.
    Mr. Zeldin. Is the VA subsidizing the golf course at all? 
Does it pay for itself?
    Mr. Moschitta. It pays for itself. Now, we get 
approximately $35,000 to $40,000 income from them. There is a 
formula. The first $300,000 that they make in revenue, we get 
$30,000, and then every $5,000 after that we get $500. So we 
are getting an income from that, and we are shedding the 
expense of maintaining it. So it is a big advantage to us.
    Mr. Zeldin. There are a lot of questions, and we have a 
limited amount of time here. I really appreciate you being 
here, but we are leaving here with further questions. So your 
responses to what is ahead is very important.
    Mr. Moschitta. Always available.
    Mr. Zeldin. I will say that the Chairman did send a letter 
to the Secretary of the Department of Veterans Affairs at the 
end of July with many very specific questions asking for a 
response by the end of August, which he didn't receive. So in 
order for us to be able to get to the bottom of everything else 
that we need to, we need more forthcoming responses right up to 
the Secretary level.
    Additionally, I would like to know more about the use of 
paper, paper logs, that process that you were unable to answer 
some of those questions earlier, just to know what is true and 
not true about a lot of the stuff that has been shared with us. 
So if you could answer for us afterwards as to where there is a 
sensitivity on the part of the Committee, knowing how the use 
of paper in other parts of the system has caused some pretty 
large scandals. So to be able to clear the air as it relates to 
Northport VA, if you can let us know exactly what your use of 
paper is, your system, and most specifically the emergency 
room, that would be very helpful.
    And one last word. I really appreciate Dr. Bellehsen being 
here, and I just want to say that the importance of peer 
support for our veterans with post-traumatic stress disorder, 
traumatic brain injury, the Northport VA working with Suffolk 
County Department of Veterans Affairs--I see Tom from the 
office here in Suffolk. Suffolk and Nassau County take peer 
support incredibly seriously. The peer support model is one 
that I believe should be replicated nationally, and it is 
saving lives.
    So your ability to continue to network with the people who 
are here, I am very interested in delivering better peer 
support. We will save further lives moving forward, and it is 
something that I would hope that you could talk to your peers 
about all across the Department of Veterans Affairs, because we 
do need to replicate that everywhere. I appreciate Northwell 
taking that leadership role and participating.
    Chairman, thank you for visiting from the 1st Congressional 
District of Florida.
    Chairman Miller and his Committee have been absolutely 
amazing and diligent through the years. So much that we know of 
the need to improve the standard of care, delivering a higher 
standard of care for veterans, so much that we know is a 
product of Chairman Miller's time with the gavel, and I really 
do appreciate everything the Veterans' Affairs Committee has 
done.
    This is my own personal observation, and I know that there 
are many people out there who might take exception with it if 
they have been on the wrong end of it. But out of 535 Members 
of Congress, my personal opinion, and I will leave that there, 
is that there is no other Member of Congress who has done more 
to shed light on really important issues impacting our veterans 
than Chairman Jeff Miller, who is retiring at the end of the 
year, maybe for the benefit of some of the people who have been 
on the wrong end of some of what we read about in the papers 
and in the news over the course of the last few years. But who 
knows, maybe he won't go too far.
    Chairman Miller, good luck in your retirement. Thank you 
for being here and taking this investigation so seriously.
    The Chairman. Thank you very much, Mr. Zeldin.
    [Applause.]
    The Chairman. Any closing remarks?
    Mr. Takano?
    Mr. Takano. Let me echo the last sentiment of my colleague 
from New York, Mr. Zeldin. I have worked alongside Chairman 
Miller for the past almost four years now, and he is a wily as 
well as charming individual, and he can be very enticing to 
make you think that his point of view is correct even when it 
is wrong.
    But I want to also say that we have done a number of things 
as Republicans and Democrats between us personally and Members 
of the Committee to do a lot of things that I think have been 
in the Nation's interest and foremost in the interest of our 
veterans.
    So, Chairman Miller, I said this on the floor of the House 
and I will say it here, we wish you well in your retirement, 
and thank you for your service.
    One veteran suicide is one suicide too many, and my heart 
goes out to the Kaisen family again, and I am very sorry for 
your loss. If that tragic event has allowed us to come together 
and take a look at the service here and to in the process 
actually validate the things that you are doing right, and also 
to call into question things that maybe we can improve upon, 
then that is something that has been a good that has come out 
of it. So we can redeem a tragedy, and we thank you for--so we 
can give thanks to that. So, Ms. Kaisen, thank you. It brings 
me great joy to see--this is the satisfying part of this work.
    Mr. Moschitta, I see that you welcome an audit of the 
outreach program, and if we can clear the air--and I agree with 
you, it is so important to make sure that our veterans here and 
everywhere know that we can clear the air, and if there is any 
cloud about the operations here, that we can clear it up.
    Dr. Bellehsen, I hope that the Health Subcommittee will 
review the work that you are doing. I await with great 
anticipation the Rand study. And as I said, Congress is very 
much interested in fostering these sorts of partnerships 
between the VA and the private health care system.
    And as the Congress should take a closer look at what the 
Federal Government role can be in addressing not only veterans, 
but their families in the context of mental health care. It is 
kind of common sense that you can't really separate the veteran 
out from the family and the effects of post-traumatic stress, 
or traumatic brain injury, or a whole host of other challenges 
that the veteran is facing health-wise without also addressing 
the family.
    So the question is to me, to what extent should the Federal 
Government be involved in expanding our scope of care to family 
members when it comes to addressing mental health care? To what 
extent should your organization have to rely on private health 
care insurance to make it possible for you to address family 
members? So that is a big question, something that we will have 
to wrestle with, and that is why the Rand report will be very 
helpful to us.
    Mr. Chairman, I am very thankful for the Committee meetings 
that you have called, and this Committee meeting has been very 
enlightening, and I have learned a lot about a very promising 
pilot program. Thank you, and I yield back.
    The Chairman. Thank you very much, Mr. Takano.
    I would say that we are here at the request of the Long 
Island delegation. Certainly, Mr. Zeldin and Miss Rice are 
Members of the VA Committee. I appreciate their diligence in 
what we are about as a Committee.
    The first thing I want to do from a bookkeeping standpoint 
is all Members will have 5 legislative days in which to revise 
or extend their remarks or add extraneous materials.
    Without objection, so ordered.
    I know everybody in the audience that may have wanted to 
speak today did not have an opportunity to speak.
    Voice. None did.
    The Chairman. We are--this is a congressional hearing.
    Voice. Some people--
    The Chairman. We will speak to anybody that wishes to speak 
afterwards. But for the official record, we invited these 
witnesses because we had specific issues that had been brought 
to us that we wanted to have answered. Now, whether the 
testimony today was truthful or not--I assume it was--that is 
why we swore the witnesses in.
    This is not the end of the investigation that is taking 
place from this standpoint. This Committee will continue its 
investigation even long after I am gone as the Chairman of this 
particular Committee. We have an oversight responsibility not 
just to this facility but to every facility across the 
Department of Veterans Affairs.
    I know the vast majority of people that work at the VA want 
to do the right thing and are employed by the VA for the right 
reason, and that is to serve the veterans. That is obvious by 
the show of hands that I saw today. That is obvious by the 
casual conversations that I have had with individuals in the 24 
hours that I have been here who were not solicited but are 
veterans who came here for their health care and had good 
experiences.
    Everybody is not going to have a good experience everywhere 
they go. Our job is to try to find out why. Those of you who 
have not had good experiences have a great opportunity now, and 
we are not talking about--this is particularly within the 
Veterans Health Administration, the VHA side of the ledger. We 
know there is a whole lot more when it comes to disability 
claims and the processing, and how that process works. Mr. 
Moschitta, if you would like to take that on, you are welcome 
to take that too.
    We just passed out of Congress last week a piece of reform 
legislation that was, I think, the number-one issue for the 
Secretary and this Administration, and if we can get it moved 
over in the Senate, I think it will make a difference.
    Again, I want to thank you all for being here. Those of you 
who served in Vietnam, 50 years, we say welcome home, to those 
of you who served this country so ably, and when you came home 
you were not treated well. Never again in the United States of 
America.
    [Applause.]
    The Chairman. With that, everybody who has worn the uniform 
of this Nation and your family members have our utmost thanks.
    This hearing is adjourned.

    [Whereupon, at 11:30 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

Prepared Statement of Joan E. McInerney, M.D., M.B.A., M.A., F.A.C.E.P.
    Good Morning, Chairman Miller, Acting Ranking Member Takano, and 
Members of the Committee. Thank you for the opportunity to discuss 
quality of care, infrastructure, leasing, and contract issues at the 
Northport VA Medical Center (VAMC). I am accompanied today by Mr. 
Philip Moschitta, Medical Center Director at Northport VAMC.
    I was appointed as the Network Director of the Veterans Integrated 
Service Network (VISN) 2 VA New York/New Jersey Network in May 2016. I 
am a Board certified Emergency Medicine/Internal Medicine physician 
with 24 years of experience at major Level I Emergency Departments 
(EDs) in the public sector in New York. I joined VA in 2011, as Chief 
Medical Officer of VISN 3. As the proud daughter of a World War II 
Veteran, I am honored to bring my experience and skills to our Veteran 
patients. Mr. Moschitta, the brother of a Vietnam Era Veteran and 
nephew of a World War II Veteran, began his VA career 44 years ago as a 
kinesiotherapist treating disabled Veterans. Since being appointed 
Director nearly eight years ago, he has witnessed the unmatched passion 
and dedication with which Northport's employees deliver care. The 
Northport VAMC has long had a strong reputation for caring for 31,500 
Veterans within its Long Island catchment area, who come to us each 
year for care.

Access

    Nationally, between August 2015 and July 2016, VA completed 
approximately 57.46 million appointments in VA facilities. This is 
830,000 more appointments than the 56.63 million that VA completed in 
the same period the year prior, and almost 2.9 million more 
appointments than the same timeframe two years prior. Eighty-five 
percent of Veterans are seen within seven days of their clinically 
indicated date, 96 percent within 30 days, and 22 percent are actually 
completed on the same day.
    Since April 2014, VA has hired 7,366 more physicians, 25,849 more 
nurses, and 57,870 additional staff nationwide. This means we have 
hired a net total of 26,392 employees--a 9 percent increase. This 
includes a net increase of 2,332 physicians or 10.3 percent, and a net 
increase of 6,818 nurses, or 11.6 percent. We also activated 
approximately 2.2 million square feet of clinical and support space, 
including long-term care facilities. Physician productivity is up 11.3 
percent, which translates to an additional 7.4 million hours of care. 
Between October and June, we increased authorizations for community 
care by 458,386, or 20 percent, from the same period the prior year. We 
have established four new regional tele-mental health hubs, and are 
expanding tele-primary care hubs to further expand access.
    Even as VA's efficiency rises, Veterans need more services from VA 
than ever before. At the Northport VAMC, outpatient visits have 
increased 3.1 percent and appointments for female Veterans have 
increased 8.4 percent over the past two years. In fiscal year (FY) 2016 
to date, Northport VAMC completed over 318,000 outpatient appointments 
with 99.2 percent of them within 30 days of the Veteran's preferred 
date. In fact, the average wait time for a mental health appointment is 
less than 2 days and Northport outperforms the 90th percentile in 
providing outpatient urgent Mental Health Care. Specialty Care access 
is at 98.4 percent within 30 days. New Primary Care, Specialty Care, 
and Mental Health Care appointments are completed within 30 days and 
exceed the 90th percentile.
    VA's FY 2016, quarter 2 outpatient access surveys show that 93 
percent of Northport's Veterans always or usually got a routine primary 
care appointment as soon as they needed. For routine specialty care, 
this number is 89 percent. Northport's outpatient satisfaction scores 
are in the top 25 percent of VA facilities for 5 out of 7 satisfaction 
composite areas.
    To expand access of services to our Veterans, Northport VAMC has 
introduced mobile health units, which allow our patients closer-to-home 
access to VA audiology and podiatry services. These mobile units also 
provide rural health care, community enrollment outreach events, and 
are prepared for deployment under the emergency management program. We 
have also been working to provide extended hours that accommodate our 
working Veterans. We have hired approximately 38 new staff to optimize 
Veteran access.

Mental Health

    Before reviewing our comprehensive mental health programs at 
Northport, I would first like to take a moment to address the August 
21, 2016 death by suicide of a Veteran on medical center campus. The 
health and well-being of the courageous men and women who have served 
in uniform is the highest priority for VA and the Northport VAMC. We 
are committed to providing timely access to high quality, recovery-
oriented mental health care that anticipates and responds to Veterans' 
needs and supports their reintegration into their communities.
    Sadly, a Veteran took his life in a parking area at Northport VAMC 
on August 21, 2016. Review of campus videos, emergency department (ED) 
records, phone records, and the Veterans Crisis Line records reflect 
that the Veteran did not reach out for help prior to taking his life. 
It has been reported that two other Veterans committed suicide at 
Northport VAMC this year. While I must respect the families' privacy in 
the details of their loved ones' deaths, I can share that one of the 
individuals was a non-Veteran employee who died in the community. The 
other circumstance involved a Veteran where the Suffolk County Medical 
Examiner determined the death was not due to suicide.
    The Northport VAMC has a long history of providing excellent 
clinical care in Mental Health, both at our main facility and our five 
community clinics. The leadership and clinicians are committed to 
providing quality care to Veterans, and have developed a comprehensive 
Behavioral Health Continuum of Care. Our goal and intent is to continue 
working as hard as we can to provide the care and services needed to 
hopefully eliminate Veteran suicides in our service area.
    Access to mental health services can be obtained the same day for 
any person identifying an urgent need. Northport's mental health walk-
in clinic has been in existence for over 25 years. It is available to 
Veterans without an appointment so they are able to see a dedicated 
psychiatrist when needed. An on-site psychiatrist is available in our 
Medical Center 24/7, should a patient present to the ED at any time 
requesting psychiatric help. This has been cited as a Best Practice by 
the Office of Mental Health Operations. Our intent is to continue 
providing this important aspect of care to our Veterans.
    Our mental health specialty services include 42 acute care hospital 
beds, as well as substance abuse services, including outpatient 
detoxification, a day treatment program, a dual-diagnosis program, a 
psycho-social rehabilitation program, case management for Veterans, a 
mental health clinic, and residential programs for both substance abuse 
and posttraumatic stress disorder.
    Our Substance Abuse Access Care Center provides walk-in 
availability for Veterans to see a substance abuse specialist, without 
an appointment. We also developed a unique written agreement with the 
Suffolk County Police. The goal of the arrangement is to ensure that 
any Veteran they engage who has a mental health crisis is brought 
directly to Northport, rather than a community hospital.
    Northport recently received national recognition for the 
development of a Unified Behavioral Health Center for military or 
Veteran families. It was accomplished in cooperation with the Northwell 
Health system (formerly known as North Shore Long Island Jewish 
system). Through this synergy, Northport serves Veterans at our 
community clinic in Bayshore, while Northwell cares for the family 
members in a model of co-located collaborative care. The model 
acknowledges the stress that all family members experience as Veterans 
receive care, and evidences the value of family support to deal with 
the wounds of war.
    Northport has embraced the national VA initiative to incorporate 
Mental Health into Primary Care. This has increased the opportunity for 
Veterans to identify personal challenges with pain, anxiety, sleep, 
depression, readjustment issues, life changes, and substance abuse 
during Primary Care visits--without having to commit to visiting a 
psychiatrist--as that may, from the Veteran's perspective, carry an 
undesired stigma.
    Cognizant of the substance abuse challenges facing many Veterans 
and the prevalence of harmful drug use on Long Island, Northport 
clinicians have made a concerted effort to address substance abuse in 
the Veteran population through the national Opioid Safety Program. This 
initiative has reduced the number of patients on high dose oral opioids 
by 47 percent from January 2015, through June 2016, while expanding 
complementary medicine alternatives such as acupuncture, meditation, 
and interventional pain management. We also are working to increase the 
use of newer, more sensitive urine toxicology methods. This will 
ideally further inform VA clinicians in each instance of care, ideally 
foster more honest conversations between clinicians and Veteran 
patients, and enable VA to provide proactive treatments including the 
opioid antagonists when appropriate. In this regard, we appreciate 
Congress' recent enactment of new authorities to support expanded 
access to opioid antagonists.

Infrastructure Issues

    Northport VA Medical Center is a tertiary care level 1 Joint 
Commission accredited facility serving Veterans in Nassau and Suffolk 
County, NY. The VA Medical Center is located in Northport, NY with 
outpatient clinics in: East Meadow, Patchogue, Riverhead, Bay Shore and 
Valley Stream, NY.
    Northport VAMC's Building 200 cooling towers unfortunately failed 
on March 10, 2015. Immediate actions to help alleviate the situation 
included the rental of four portable chillers on March 12, 2015. The 
units provide cooling for the main hospital, outpatient clinics, and a 
portion of the Community Living Centers, and Administrative areas at an 
approximate net cost of $50,000 per month.
    Immediately after the failure, VA decided to pursue a Utility 
Energy Services Contract with a local utility company named National 
Grid for replacement of this critical infrastructure. Using this 
contract vehicle, VA would replace the failed equipment with energy 
efficient components and could pay back the utility through energy and 
operational savings over a number of years. Contract performance began 
in August 2016, and is currently set for completion in Fall 2017.
    On February 17, 2016, Northport VAMC's operating room (OR) staff 
detected sand-sized particles (later analyzed and identified as rust) 
coming from the heating, ventilation, and air condition (HVAC) system 
in OR 4. Facility leaders determined that the condition posed a 
potential risk to the health of patients and staff, and made the 
necessary decision to close all five ORs for Veteran safety.
    Northport's attention then quickly turned to ensuring that Veterans 
would continue to receive proper and timely care in a safe environment. 
Patients who needed emergent surgical procedures were transferred to 
affiliate and local hospitals. Patients scheduled for elective 
procedures were offered care through other VISN 2 facilities in New 
York City, and in the community through the Veterans Choice Program. 
All decisions regarding surgeries were made with input and feedback 
from the patients and their physicians. Clinical reviews of those 
Veterans whose surgeries were relocated or postponed have not revealed 
any adverse effects or outcomes.
    For three consecutive weeks after the initial OR closure, 
activities to remediate the problem included duct cleaning, continued 
surveillance for particles, installation of temporary filters, and 
consultative meetings with pertinent experts. Air and surface testing 
samples were taken in the ORs, to determine and confirm the efficacy of 
our remediation efforts. Analysis of the samples through an independent 
environmental reference laboratory revealed insignificant levels of an 
airborne fungus cladosporium, which Infection Control experts concluded 
would not pose a health risk. Accordingly, three of the five ORs were 
reopened on March 14, 2016.
    On April 13, 2016, particulates were observed again in one of the 
three open ORs. To ensure patient safety, VA leadership closed all 
three ORs for open surgical cases. Through consultation with subject 
matter experts within and outside of VA, Northport developed the 
following three-phase plan to resolve the issue so the ORs could then 
be reopened:

    1.Fan-assisted high-efficiency particulate air (HEPA) filters were 
chosen as the immediate action to control the particulate discharge. On 
June 1, 2016, VA received the fan-assisted HEPA filters, which were 
custom designed and created to fit into the ORs. Through the use of 
these filters, and upon confirming that the situation had sufficiently 
improved, the first 3 of the 5 ORs opened for patient care on June 7, 
2016. All the ORs were open by June 16, 2016. Subsequent sampling and 
testing revealed no particulate discharge.

    2.Following the reopening of Northport VAMC's ORs, an independent 
consultant conducted a forensic inspection of the OR air handler. It 
determined that the air handler could be refurbished to a safe 
condition. Based on VA's assessment, coupled with the observations and 
recommendations of this independent consultant, the Northport VAMC is 
pursuing a contract to refurbish the OR HVAC system. This is the 
intermediate plan for the OR.

    3.The ultimate long-term plan is to evaluate the potential to 
ultimately replace the ORs by submitting a proposal through VA's 
Strategic Capital Investment Plan.

    Lastly, we sincerely apologize for not alerting our Congressional 
partners sooner during this event. Please know that going forward our 
goal will be to ensure we provide more timely notice to you if and when 
similar events transpire. We truly appreciate the unwavering interest 
and support that you provide to our VA personnel and local Veterans.

Moving Forward

    The October 2015 integration of VISN 3 into VISN 2 has created new 
and improved synergies, transparency and alignments. Constructive 
interactions among the medical centers and contracting have increased 
dramatically in the past year and have created improved cooperation and 
efficiencies. This has included enhanced procurement package 
development, as well as contract awarding, implementation, and 
administration. This has helped us work to achieve our related goal to 
ensure quality and timely construction and maintenance of our 
facilities, respect for underlying budget constraints, and stewardship 
of our Nation's tax dollars.
    During this process, leadership will continue to assess our current 
and future needs and project planning to better understand the 
underlying factors and develop enhanced planning processes to include 
risk assessment and cost based analyses. This will enable us to develop 
improved long range capital investment plans based on lessons learned 
and consideration of best practices.
    We are also committed to strengthening our incident command team so 
that we are better prepared should similar crises arise in the future. 
This team will include administrative and clinical leadership, as well 
as personnel in the areas of engineering, patient and environmental 
safety, infection control, contracting, and appropriate VA subject 
matter experts. We believe this is crucial to ensuring safety, access, 
quality, and financial stewardship. Northport VAMC is committed to the 
Secretary's MyVA Initiative of putting Veterans first and at the center 
of what we do. In that regard, we are excited and look forward to 
continuing our efforts to improving the Veteran experience, improving 
the employee experience so we can better serve Veterans, improving 
internal support services, establishing a culture of continuous 
improvement, and enhancing strategic partnerships.

Conclusion

    The leadership of VA, VISN 2, and the Northport VAMC are committed 
to ensuring excellent, high quality patient-centered care at all times 
and in all venues. We strive for prompt access, excellence in patient 
care, and superior clinical outcomes. Our clinical care teams value the 
importance of the Veteran experience. VA remains committed to ensuring 
America's Veterans have access to the health care they have earned 
through service. We are committed to accountability and transparency in 
providing any requested information to our Congressional stakeholders.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to testify before the Committee today. We appreciate your 
support of Veterans. We would be pleased to respond to any questions 
that you and Members of the Committee may have.

                                 <F-dash>
              Prepared Statement of Mayer Bellehsen, PhD.
    Good morning. I am Mayer Bellehsen Ph.D., Director of Northwell 
Health's Mildred and Frank Feinberg Division of the Unified Behavioral 
Health Center for Military Veterans and their Families.
    I want to thank Chairman Miller, Ranking Member Takano and Members 
Zeldin, Rice and Israel for convening on Long Island this field hearing 
of the House Committee on Veterans' Affairs.
    Long Island's Nassau and Suffolk Counties are home to nearly 
150,000 military veterans so it is important that the Committee is here 
focusing upon their health care needs and, as importantly, on the needs 
of their family members who are too often overlooked.
    While I am not an employee of the Veterans Health Administration, I 
consider it an honor and privilege to serve alongside my Northport 
Veterans Administration Medical Center (VAMC) colleagues in an effort 
to assist our Nation's veterans and family members who have sacrificed 
for us. As the Director of the Northwell Health Feinberg Division of 
the Unified Behavioral Health Center, I have been directly involved 
with the operations of this Center from its opening in late October, 
2012, until today. As such, I am able to speak to the successes of this 
unique, first-of-its-kind public-private partnership in which co-
location of services and coordination of care is collaborated on 
between Northwell Health and the Northport VAMC to serve veterans and 
their families.
    I am excited to present to the Committee a modest but effective 
veteran family health care model that Northwell Health established in 
2012 in cooperation with the Northport Veterans Administration Medical 
Center. In particular, I would like to thank the leadership from both 
Northwell Health and the Northport VAMC, including Michael Dowling, 
Blaine Greenwald, MD, Phillip Moschitta, and Charlene Thomesen, MD. I 
believe this joint enterprise reflects highly on the vision and 
boldness of leadership in both institutions, as well as their 
commitment to serving the veteran community. The data I will present 
demonstrates that with a modest investment, public-private partners 
like our not-for-profit Northwell Health and the Northport VAMC can 
generate significant clinical successes for our deserving veteran 
families.
    People will often ask about the scale of the necessary investment. 
I shall provide budgetary details later in my testimony. The essential 
point, however, is that an effective health care program does not 
require a multi-story expensively equipped building. Instead, I have 
attached to my testimony the actual floor plan for our 3,680 square 
foot store front facility in downtown Bay Shore. We would welcome the 
opportunity to give the Committee and/or its staff a tour at a future 
date.
    Based upon the success of our program, we urge the Committee 
members to consider the possibility of replicating our successful model 
in your districts and, indeed, throughout the country.
    I would like to first share with you the history of this 
partnership and then our achievements. The Center was first conceived 
of in the context of conversations that started in 2010 regarding 
possibilities for collaboration between Northwell Health (formerly 
known as North Shore-Long Island Jewish Health System) and the 
Northport Veteran Administration Medical Center. Building off of 
Northwell Health's prior efforts to serve military members and their 
families, along with Northport VAMC's expertise in serving veterans, 
leadership from both institutions agreed that it would be advantageous 
to pursue a novel, public-private partnership to expand care to veteran 
families.
    The impact of military service on veterans has been well documented 
(Tanielian et al. 2008) and the desire for families to be further 
integrated into services has been highlighted (Shell & Tanielian, 
2011). Furthermore, we know that there is an impact on the family 
members of those who have served when re-integration challenges and 
mental health difficulties such as Post Traumatic Stress Disorder 
(PTSD), Traumatic Brain Injury (TBI), Depression and Substance Abuse 
are present (Amadzadeh & Malekian, 2004; Chandra et al. 2010; Dekel & 
Goldblatt, 2008; Tanielian et al. 2013). However, due to Veterans 
Health Administration guidelines, there were limitations on the ability 
for the VAMC to assist the family system. Historically, the mandate of 
the Veterans Health Administration is to care for the individual 
veteran. There are instances in which it can assist family members, but 
there are limitations as well, including: 1) situations where a family 
member would like to engage in treatment, but the veteran is not 
engaged, 2) cases where individual services are needed for an adult 
family member independent from the veteran, and 3) when children are 
involved and require child focused treatments.
    As a result, it is often the case that the family members look to 
ad hoc providers in the private sector for care. There is no structured 
clinical path for the VA and private providers to collaborate on a 
treatment plan for the veteran's family as a unit.
    Gaps in coverage and the need for partnerships to address them have 
been recognized as an important area to focus on within the veteran 
space. To this end, in 2012, President Obama signed an executive order 
calling for collaboration between the VHA and local community-level 
partners in order to improve the services provided to servicemembers 
and their families (Department of Defense, 2013). However, Northwell 
Health and the Northport VAMC were ahead of the curve in pioneering a 
model for addressing these needs.
    As a consequence of the conversations in 2010 and in response to a 
request for proposals by The Robert Wood Johnson Foundation, the 
Unified Behavioral Health Center for Military Veterans and their 
Families (UBHC) was proposed and then established. The mission of the 
Center is to operate a model public-private partnership (between a 
Federal Veterans Administration (VA) Medical Center (Northport VAMC) 
and a private sector Health System (Northwell Health)) that 
successfully serves the behavioral health needs of military and veteran 
families.
    The novelty of this partnership included the development and 
maintenance of a Center that promotes co-location of services and 
cross-talk between staff from both institutions for the provision of 
coordinated care to the veteran family. The VA offers primary care and 
behavioral health services to the veteran in a Community Based 
Outpatient Center (CBOC) called the VA Clinic at Bay Shore, while 
Northwell Health offers behavioral health services to the family 
members at the Mildred and Frank Feinberg Division of the Unified 
Behavioral Health Center. These two centers are located side by side 
under one roof, with shared spaces for collaboration. Through a 
collaborative care model, the two institutions meet regularly to 
coordinate care of shared cases.
    The Center was established with five principal goals in mind: These 
included:

    1.Model a new form of public-private partnership to meet the needs 
of military and veteran families.

    2.Increase access to behavioral health services for veterans and 
their families.

    3.Offer evidence-based, quality treatment to ameliorate mental 
health distress born by veterans and their families and improve quality 
of life.

    4.Conduct outreach to the community to de-stigmatize mental health 
service, and

    5.Document and disseminate this model for others to consider in 
replication.

Achievements

    I am pleased to share that in our nearly four years of operation, 
we have been largely successful in meeting our objectives. These 
accomplishments are a testament to the positive working relationship 
between our institutions' administrative and clinical staff along with 
our shared commitment to serving our military and veteran community. 
Supporting documentation of these accomplishments can be found in the 
attached Exhibits A-F. Achievements include:
    Establishment of a unique public-private partnership- In 2012, the 
Unified Behavioral Health Center was built and opened in Bay Shore, NY. 
This entailed construction of a 3,680 square foot center for co-
location and coordination of behavioral health services for the veteran 
and his or her family. The Center was staffed by personnel from both 
institutions and began implementing its coordinated care model by 
December, 2012. The model has included weekly coordinated treatment 
team meetings with staff from both institutions along with occasional 
integration of staff located at other Northport VAMC facilities via 
teleconferencing. Co-location and collaboration has contributed to 61% 
of Northwell Health clients being referred from the VA, which reflects 
on the success of partnerships in reaching this population. 
Additionally, this arrangement has led to monthly opportunities for 
cross education to share knowledge regarding family and veteran related 
challenges across institutions.
    Increased Access to Care- The partnership has also lead to 
increased access to care for veterans and their families. From 
inception through August 31st, 2016 there have been 9,470 visits among 
303 unique patients in the Northwell Health section of the UBHC (the 
Feinberg Division). Meanwhile, there have been 10,017 visits among 
1,040 unique patients at the VA section of the UBHC. Prior to opening 
the CBOC in Bay Shore, the Northport VAMC operated two mobile CBOCs in 
Islip and Lindenhurst. Notably, when the Northport VAMC contrasts the 
visits in its Bay Shore CBOC to the year prior to opening this 
facility, they find an increase of 4% in unique patients encountered in 
the region.
    As a result of the partnership, nearly half of the referrals to 
Northwell Health from the VA have resulted in collaborative care cases 
(i.e. cases wherein the VA sees the veteran, Northwell Health sees at 
least one family member, and permission is given to coordinate 
treatment). Furthermore, 73% of the clients seen by Northwell Health 
clinicians are family members or have a close relationship to a 
veteran/military member and 47% report no prior treatment. Although 
definitive conclusions are difficult to make without comparisons to 
other programs, this data suggests that the Center is reaching 
individuals that may not regularly engage in treatment. Additionally, 
over half of the clients seen by Northwell Health connect their 
difficulties to the invisible wounds of war such as PTSD. Lastly, 20% 
of our active clients at present are children who would otherwise not 
likely receive treatment in a veteran informed space.
    Satisfaction with Services- As a result of our collaborative 
efforts, clinicians largely report that they are satisfied with the 
model and clients report that they are satisfied with services and 
outcomes. An independent evaluation of the Center is being conducted by 
the RAND Corporation and I have been informed that they will be 
releasing their evaluation in October, 2016. This evaluation will also 
include some analysis of satisfaction and outcomes. However, in the 
Northwell Health section, our staff's clinical observations that 
incorporate the use of standard psychometric tools and patient report 
already suggest that patients are achieving desirable improvements.
    Beyond the successes captured in these numbers, the stories of 
those we serve are most compelling. As highlighted in the stories of 
our clients such as an interview conducted by CNN with one couple 
treated at the Center (Exhibit C), it is our belief that our 
partnership has not only resulted in greater care for a veteran's 
family, but it has benefitted the veteran as well. Furthermore, due to 
co-location, clinicians from the Northwell Health side can regularly 
encourage veteran engagement with the Northport VAMC when a family 
member reaches out independently or when a veteran finds their way to 
Northwell Health. While there are no statistics to capture this, I can 
anecdotally report on numerous instances when I have been able to walk 
a veteran over to the VA to engage them in VA care. I was always met 
with receptivity and a quick response to engage the veteran in 
treatment.
    Promotion of the Model- The Unified Behavioral Health Center has 
been highlighted by the White House as an example of community 
partnership. Additionally, reports by CNN and the Agency for Healthcare 
Research and Quality have featured this Center as a model (Exhibit C). 
More recently, the RAND Corporation released a paper that reviews the 
landscape of public-private partnerships in delivering care to veterans 
(Pedersen et al., 2015). It noted that there are very few such 
partnerships in delivering behavioral health care and it highlighted 
the UBHC as one of a kind in delivering co-located, coordinated care 
for the veteran and their family. As noted above, the RAND Corporation 
has been conducting an independent evaluation of the r Center and will 
produce a report that comments on the program in the month of October. 
Ultimately, it is the hope of UBHC staff that the report will add 
legitimacy to the argument for the Federal Government to do more in 
supporting the replication and sustainability of other centers similar 
to the UBHC on a national level.
    Cost of Operations- The Northwell Health section of our Center is 
currently staffed by 4.5 full time employees that range in professional 
background. For the 3.5 years from inception through June, 2016 we have 
been able to operate our program at a cost of $2,319,661 (Exhibit D). 
This amount has been secured through various channels, including a 
Robert Wood Johnson Foundation and Local Funding Partners grant, and 
through ongoing subsidization and fundraising efforts by Northwell 
Health. Additionally, our Center began billing processes in 2016 to 
help offset costs of sustaining the Center.
    In summation, the model of the Unified Behavioral Health Center for 
Military Veterans and their Families is a novel public-private 
partnership that includes co-location of services and coordination of 
care between institutions that has resulted in increased benefits to 
the veteran community, including: expansion of services to the family 
(including children), greater dialogue between institutions to 
coordinate care, efficient referrals of services for veterans and 
family members, greater education on family related challenges for VAMC 
staff, greater education on veterans' culture and challenges for 
private sector staff, and easier access to the networks of support that 
both partner institutions can offer. Staff report that they believe the 
model is effective and clients at the UBHC report feeling satisfied 
with their treatment.
    It is my belief that the center has had an important impact on the 
landscape of veteran care and veteran family care on Long Island, and 
should continue to have an impact. The key elements of success have 
been co-location and coordination of care. The creation of a new site 
tailored to this task was undertaken, but this may not always be 
necessary as future partnership may want to utilize existing space on 
VA grounds or on the grounds of a private sector institution. As long 
as there is adequate engagement of staff from both institutions through 
regular coordination of care and some degree of co-location, it is 
likely that these centers can achieve the goals of enhanced care for 
the veteran and the family.
    The implementation of a public-private partnership between a 
private sector health system and the VHA is a critical step for 
expanding family services to the veteran community. The model that has 
been piloted by Northwell Health and the Northport VAMC at The Unified 
Behavioral Health Center for Military Veterans and their Families has 
demonstrated the viability of partnerships. Further independent 
evaluation of the Center is forthcoming, but I believe this model 
represents a promising avenue for supporting our Nation's veteran 
families.
    I thank you again for the opportunity to discuss our Center and 
welcome any questions you may have.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
